<html>
<title> - MANAGING RADIO FREQUENCY SPECTRUM: MILITARY READINESS AND NATIONAL SECURITY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  MANAGING RADIO FREQUENCY SPECTRUM: MILITARY READINESS AND NATIONAL 
                                SECURITY
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2002

                               __________

                           Serial No. 107-84

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform




                       U. S. GOVERNMENT PRINTING OFFICE
80-940                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2002...................................     1
Statement of:
    Gallagher, Michael, Deputy Assistant Secretary for 
      Communication and Information, National Telecommunications 
      and Information Administration, Department of Commerce; 
      Major General James D. Bryan, Deputy Director, Defense 
      Information Systems Agency [DISA]; and Julius Knapp, Deputy 
      Chief, Office of Engineering and Technology, Federal 
      Communications Commission..................................   110
    Price, Steven, Deputy Assistant Secretary for Spectrum and C3 
      Policy, Office of the Secretary of Defense; Lieutenant 
      General Joseph Kellogg, Army, Director of Command, Control, 
      Communications and Computers, C4, Joint Chiefs of Staff; 
      Vice Admiral Richard Mayo, Director of Space, Information 
      Warfare, Command and Control, Chief of Naval Operation; 
      Lieutenant General John Woodward, Director of Headquarters 
      Communications and Information, U.S. Air Force; Major 
      General Stephen W. Boutelle, Director, Information 
      Operations, Networks and Space, U.S. Army; and Brigadier 
      General Robert M. Shea, Director of Command, Control, 
      Communications, and Computers, C4, U.S. Marine Corps.......     9
Letters, statements, etc., submitted for the record by:
    Boutelle, Major General Stephen W., Director, Information 
      Operations, Networks and Space, U.S. Army, prepared 
      statement of...............................................    68
    Bryan, Major General James D., Deputy Director, Defense 
      Information Systems Agency [DISA], prepared statement of...   120
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     6
    Gallagher, Michael, Deputy Assistant Secretary for 
      Communication and Information, National Telecommunications 
      and Information Administration, Department of Commerce, 
      prepared statement of......................................   114
    Gross, David, Deputy Assistant Secretary of State for 
      International Communications and Information Policy, 
      prepared statement of......................................   144
    Kellogg, Lieutenant General Joseph, Army, Director of 
      Command, Control, Communications and Computers, C4, Joint 
      Chiefs of Staff, prepared statement of.....................    31
    Knapp, Julius, Deputy Chief, Office of Engineering and 
      Technology, Federal Communications Commission, prepared 
      statement of...............................................   132
    Mayo, Vice Admiral Richard, Director of Space, Information 
      Warfare, Command and Control, Chief of Naval Operation, 
      prepared statement of......................................    42
    Price, Steven, Deputy Assistant Secretary for Spectrum and C3 
      Policy, Office of the Secretary of Defense, prepared 
      statement of...............................................    12
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Shea, Brigadier General Robert M., Director of Command, 
      Control, Communications, and Computers, C4, U.S. Marine 
      Corps, prepared statement of...............................    79
    Woodward, Lieutenant General John, Director of Headquarters 
      Communications and Information, U.S. Air Force, prepared 
      statement of...............................................    56


  MANAGING RADIO FREQUENCY SPECTRUM: MILITARY READINESS AND NATIONAL 
                                SECURITY

                              ----------                              


                        TUESDAY, APRIL 23, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Gilman.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Sherrill 
Gardner, detailee-fellow; Jason M. Chung, clerk; Grace 
Washbourne, professional staff member (full committee); David 
Rapallo, minority counsel; and Earley Green and Jean Gosa, 
minority assistant clerks.
    Mr. Shays. I would like to open this hearing, and we 
apologize for being a little late. Especially with the military 
I like to be on time because you are always on time.
    The Marine Corps facility at Camp Pendleton contains 17 
miles of California coastline. Last May, the General 
responsible for providing realistic training to amphibious 
units testified only 2.5 miles of that beachfront were 
intermittently available to expeditionary forces preparing for 
coastal combat contingencies throughout the world. Lack of 
beach access means units can't train as they'll be asked to 
fight. Readiness is degraded.
    Military access to another form of beachfront property is 
also at risk. Prime bands of the electromagnetic spectrum used 
by the Department of Defense [DOD], to carry essential radio 
and satellite transmissions are being targeted for development 
by commercial telecommunications firms here and abroad.
    Growing civilian demand for wireless services confronts 
growing DOD requirements for network combat systems on the 
already crowded finite shoreland of the radio frequency 
spectrum.
    So today we ask, are national security needs for critical 
radio frequency bands reflected in DOD planning and national 
spectrum allocation policies?
    Each major deployment since the Gulf war has brought new 
generations of spectrum dependent tools to the battlefield. 
Advanced radios, radar, sensors and data systems give U.S. 
forces overall information superiority, detailed situational 
awareness and the ability to coordinate air, ground, naval and 
satellite components in real-time. Digital technologies allow 
front-line units in Bosnia and Kosovo to reach back to the 
American mainland for data and analysis.
    In Afghanistan, the use of precision guided munitions 
limits collateral casualties, outflanking the human shield of 
civilians behind which terrorists cower. The use of unmanned 
aerial vehicles [UAVs], allows a more timely application of 
close air support for ground forces, providing tactical 
flexibility and avoiding casualties.
    To use these systems effectively in combat, U.S. soldiers, 
sailors, air crews and Marines need to train under realistic 
conditions, but that is not always possible. Powerful radars 
can disrupt civilian communications. Encroachment in or near 
DOD frequencies by competing uses causes interference that can 
weaken or break uplink signals to satellites, munitions or 
UAVs.
    At the same time, DOD has not always used available 
frequencies as efficiently as possible. System development and 
acquisition processes lasting 10 years or more cannot keep pace 
with far more rapid dynamics of national and international 
frequency regulation and allocation. The lack of a truly joint 
approach to spectrum use means separate military services have 
designed major systems, using the same frequency bands, which 
will interfere with each other on the joint battlefield.
    DOD demand for spectrum will only grow. Technology offers 
some prospect frequencies can be shared, or more data moved 
more quickly using less bandwidth, but the beach front of 
technologically useful spectrum will continue to attract more 
users than the unalterable physics of electromagnetism will 
accommodate.
    The challenge: Allocating the finite supply of spectrum 
among potentially infinite demands for wireless capabilities.
    We asked our witnesses this morning to describe how the 
Department of Defense assesses spectrum requirements and how 
national security needs are represented in interagency and 
international forums. We look forward to their testimony and 
welcome each and every one of them.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.001
    
    [GRAPHIC] [TIFF OMITTED] 80940.002
    
    Mr. Shays. At this time I would like to recognize the 
gentleman from New York, the most distinguished gentleman, Mr. 
Gilman.
    Mr. Gilman. Thank you, Chairman Shays, and I want to extend 
our thanks to you for holding this morning's hearing to examine 
an emerging problem for our Nation's military, shrinking 
bandwidth availability in our radio frequency spectrum.
    The last 10 years have seen an enormous increase in the use 
of radio frequency spectrum and wireless communications in our 
military operations. A large component of today's defense 
reconnaissance operations consist of the use of satellite 
imaging and unmanned aerial vehicles to locate, monitor and 
track movement of enemy forces. Moreover, wireless 
communications allows our military commanders to communicate 
with forces in the field, following events on the battlefield 
in real-time fashion, and to direct close air support missions 
against enemy forces through consultation with our ground 
forces in the theater.
    This expanded use of wireless technology does come with a 
price, however, the rapidly expanding use of radio frequency 
bandwidth. Just one of the new Global Hawk unmanned aerial 
vehicles uses five times the total bandwidth consumed by the 
entire military during the Gulf war.
    In essence, future operations will continue to see 
bandwidth use increase while the number of forces deployed in a 
given operation continues to grow smaller. The military had 
planned to meet future contingencies in that area through the 
use of commercial satellite technology. However, that industry 
has recently fallen on hard times, leading to a shortage of the 
hardware needed to meet the wireless communications needs of 
the military.
    A Wall Street Journal article on April 10, 2002, stated 
that the military was counting on over 1,000 new satellites 
being available by the year 2005 for their use in future 
operations. However, of the 675 launches expected between 1998 
and 2002, only 275 actually made it into space.
    So I look forward to the testimony from our witnesses today 
as we look for ways to meet and address this challenge.
    Thank you once again, Congressman Shays, for holding this 
important hearing.
    Mr. Shays. Thank you very much, Mr. Gilman.
    Let me just get some committee business out of the way and 
ask unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record, that the 
record remain open for 3 days for that purpose.
    Without objection so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    And I further ask unanimous consent that Chairman Dan 
Burton's opening statement be inserted into the record at this 
point. Without objection, so ordered.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.003
    
    [GRAPHIC] [TIFF OMITTED] 80940.004
    
    Mr. Shays. Chairman Burton has also submitted some 
additional questions to be answered for the record. Some of 
them we may ask you today. But we would like the witnesses--the 
chairman has requested that written responses to his questions 
be submitted in writing to the subcommittee by May 23rd, so 
basically a month.
    We have a very distinguished panel, two panels, and I would 
apologize that we have the six of you all at one table. My 
preference is basically to have no more than four, but for the 
synergy, and I think it will be helpful to have all of you 
interact, and I think you all understand that.
    We have before us today Mr. Steven Price, Deputy Assistant 
Secretary for Spectrum and C3 Policy, Office of the Secretary 
of Defense.
    We have Lieutenant General Joseph Kellogg, Army, Director 
of Command, Control, Communications and Computers, Joint Chiefs 
of Staff.
    We have Vice Admiral Richard Mayo, Director of Space, 
Information Warfare, Command and Control, Chief of Naval 
Operations.
    We have Lieutenant General John Woodward, Director of 
Headquarters Communications and Information, U.S. Air Force.
    Major General Stephen W. Boutelle, Director, Information 
Operations, Networks and Space, U.S. Army.
    And Brigadier General Robert M. Shea, Director of Command, 
Control, Communications, and Computers, C4, U.S. Marine Corps.
    As you may know, we swear in all of our witnesses. I will 
say in my many years now of being chairman the only time I 
didn't swear someone in was when it was Senator Byrd. I 
chickened out, and I regret it to this day.
    But if I could ask you all to stand. I just also have to 
disclose that not everyone has always done it.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of the panel 
responded in the affirmative.
    It is an honor truly to have all of you here today. This is 
a very important issue. It is not the kind of issue that the 
press knocks down the doors to cover, but it is an 
extraordinarily important issue, and I know that you all have a 
lot to provide us.
    And so if we could, I think we will just go in the order in 
which I called you. And is that the order that I see them? So 
if we could, we will start with you, Mr. Price.

  STATEMENTS OF STEVEN PRICE, DEPUTY ASSISTANT SECRETARY FOR 
  SPECTRUM AND C3 POLICY, OFFICE OF THE SECRETARY OF DEFENSE; 
 LIEUTENANT GENERAL JOSEPH KELLOGG, ARMY, DIRECTOR OF COMMAND, 
  CONTROL, COMMUNICATIONS AND COMPUTERS, C4, JOINT CHIEFS OF 
     STAFF; VICE ADMIRAL RICHARD MAYO, DIRECTOR OF SPACE, 
   INFORMATION WARFARE, COMMAND AND CONTROL, CHIEF OF NAVAL 
   OPERATION; LIEUTENANT GENERAL JOHN WOODWARD, DIRECTOR OF 
 HEADQUARTERS COMMUNICATIONS AND INFORMATION, U.S. AIR FORCE; 
   MAJOR GENERAL STEPHEN W. BOUTELLE, DIRECTOR, INFORMATION 
   OPERATIONS, NETWORKS AND SPACE, U.S. ARMY; AND BRIGADIER 
     GENERAL ROBERT M. SHEA, DIRECTOR OF COMMAND, CONTROL, 
      COMMUNICATIONS, AND COMPUTERS, C4, U.S. MARINE CORPS

    Mr. Price. Thank you. Good morning. Mr. Chairman, Mr. 
Gilman, I would like to thank you for holding this hearing. It 
is an honor to be here before you. I would also like to thank 
your staffs for their hard work in preparing for this hearing.
    The Department of Defense appreciates that your committee 
is looking at spectrum management in general and military use 
of spectrum in particular. Spectrum is the lifeblood of our 
military. Every ship at sea, every airplane conducting 
missions, every forward deployed young man or woman, especially 
in hard to reach locations, depends on radios and spectrum to 
conduct their missions and to return home safely.
    A Special Forces team leader operating in Afghanistan 
recently reported on his experience during Operation Enduring 
Freedom: ``we could go in there naked with flip-flops, and as 
long as we have good radios, we could do our job.''
    Information is clearly one of our most important weapons, 
and spectrum is the resource that allows this information to 
flow from commanders to mobile combat troops wherever they are 
deployed in the world. And this will be even more true in the 
future.
    A Department of Defense spectrum requirements analysis 
completed prior to September 11th, and therefore likely to be 
an underestimate, predicted DOD spectrum usage growth of more 
than 90 percent by 2005. This is due, in part, to our ongoing 
transformation to a network centric military as well as to new 
operational concepts, including items that you noted in your 
opening statement, such as extensive use of UAVs, unmanned 
aerial vehicles, and evolving strategies that require joint 
dispersed forces to have greater connectivity in the last 
tactical mile.
    In addition, there will be new demands in the arena of 
homeland defense. These will likely include new spectrum-
related missions such as protection of critical infrastructure, 
emergency response, and support for major events, as was the 
case during the 2002 Winter Olympics in Salt Lake City.
    In short, our spectrum needs are growing rapidly, and the 
Department does not believe that the future needs of our 
transformed network centric military can be met without access 
to additional spectrum allocations.
    The Department's spectrum policy is guided by five core 
principles, and I will briefly address each one.
    First, spectrum is a vital national resource. We understand 
that defense needs must be balanced with other national needs. 
That balance, however, must recognize that in allocating 
spectrum, the essential defense needs must have top priority.
    Second, spectrum is critical to the Department of Defense. 
It is a core enabler of what we do. Therefore, we should not 
allow the lack of sufficient spectrum to be a constraint on our 
warfighter. The distinguished Generals and Admiral to my left 
will discuss these issues in detail.
    Third, DOD recognizes that we must be a good and 
responsible spectrum user. In fact, we strive to be as 
efficient a spectrum user as we can be. It is important to 
understand that DOD's spectrum use is very different from that 
of commercial enterprises. The commercial sector seeks low-cost 
high-revenue solutions, and therefore busy signals are 
acceptable. I understand and accept that. In fact, when I ran a 
publicly traded wireless communications company, I did exactly 
that. But such cannot be the case for the military, because our 
calls must get through, whether they be a call guiding a 
precision guided munition or alerting the soldier of harm. 
Where lives are at stake, there can be no allowance for a busy 
signal and no margin for error.
    A fourth core Department of Defense principle is that we 
are committed to continue investing in research and development 
for new spectrum efficient technologies. DOD has been a major 
contributor to the birth of CDMA, software defined radio, and 
other technologies, and we are reaching out to collaborate with 
my former colleagues in the private sector to expedite such 
efforts.
    Fifth, DOD commits to actively supporting U.S. policies and 
interests in international spectrum bodies. To do this, 
however, we must ensure that the national process allows for 
planning and setting of overall national priorities and have a 
process that affords the incumbent user a high degree of 
predictability and certainty, and we firmly believe that there 
should be no intrusion into Federal spectrum without executive 
branch concurrence.
    Despite how critical spectrum is to DOD's mission, its 
access to it is under attack. Losing needed spectrum is like 
losing any other vital resource. It costs both in current 
capability and future opportunity, both directly and through 
reallocation of dollars to mitigate the damage.
    Each time we are forced to adjust training in the United 
States away from operational norms to accommodate domestic 
frequency restraints, our training realism and effectiveness 
suffers. The uncertainty caused by relocation attacks pose 
serious issues for our long-term planning. Will we be required 
to move? Will we get the money to move? Will we need to 
retrain? Will we retrain in time to be prepared to deploy in an 
emergency?
    Will we need to change concepts of operations to account 
for degraded capabilities? Will we be able to get host nation 
approvals to use systems in the new frequency band in all parts 
of the world we might need to do so? Will our allies who bought 
interoperable systems now also be required to modify their 
equipment? And if so, who pays their bill? Will the new 
spectrum be free of interference, and on and on?
    The Department of Defense bears the risk of overcoming 
these and any technical challenges and, most importantly, we 
bear the risk of the failure of our equipment due to hasty 
relocation decisions.
    In the Department of Defense, we have a duty to the young 
men and women who defend our country. We have a duty to ensure 
that they have the tools, including spectrum, that they need to 
do their job. We owe them policies to ensure that lack of 
access to spectrum is not a constraint on their warfighting 
capability.
    Thank you for your time today. I look forward to working 
with you and all of the other witnesses on these important 
issues, and I look forward to your questions.
    [The prepared statement of Mr. Price follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.005
    
    [GRAPHIC] [TIFF OMITTED] 80940.006
    
    [GRAPHIC] [TIFF OMITTED] 80940.007
    
    [GRAPHIC] [TIFF OMITTED] 80940.008
    
    [GRAPHIC] [TIFF OMITTED] 80940.009
    
    [GRAPHIC] [TIFF OMITTED] 80940.010
    
    [GRAPHIC] [TIFF OMITTED] 80940.011
    
    [GRAPHIC] [TIFF OMITTED] 80940.012
    
    [GRAPHIC] [TIFF OMITTED] 80940.013
    
    [GRAPHIC] [TIFF OMITTED] 80940.014
    
    [GRAPHIC] [TIFF OMITTED] 80940.015
    
    [GRAPHIC] [TIFF OMITTED] 80940.016
    
    [GRAPHIC] [TIFF OMITTED] 80940.017
    
    [GRAPHIC] [TIFF OMITTED] 80940.018
    
    [GRAPHIC] [TIFF OMITTED] 80940.019
    
    [GRAPHIC] [TIFF OMITTED] 80940.020
    
    [GRAPHIC] [TIFF OMITTED] 80940.021
    
    Mr. Shays. Thank you, Mr. Price.
    Lieutenant General Kellogg. What we are doing is we are 
doing the 5-minute clock. Then we roll it over, give you 
another 5 minutes, but would obviously want you to stop before 
the second one. Nothing terrible happens if you don't.
    General Kellogg. Yes, sir.
    Chairman Shays, Congressman Gilman, I have submitted my 
written statement for the record and I thank you for the 
opportunity to speak on the importance of radio frequency 
spectrum to our Nation's military forces and to the security of 
our Nation.
    Radio frequency spectrum is an important limited national 
resource and is in great demand by both commercial and 
governmental stakeholders. Under the leadership of General 
Myers, the chairman of the Joint Chiefs of Staff, we in the 
military are transforming to a more network centric 
organization.
    Wireless technology has allowed us to integrate arms like 
never before to decrease our casualties and impose the maximum 
amount of violence on our enemies. Our fighting personnel 
engaged in Operation Enduring Freedom in Afghanistan are 
dependent upon the use of adequate radio frequency now in the 
fighting in Afghanistan.
    The troops on the ground are, even as we speak, in 
communication with aircraft flying far overhead. They are 
passing precise coordinates to allied flyers in order to move 
more accurately placed Global Positioning System guided 
munitions onto enemy positions. We are finding that military 
spectrum requirement growth parallels that of our commercial 
industry, much like Mr. Gilman said earlier today.
    The nature of modern warfare depends greatly upon the 
availability of spectrum. The ongoing transformation of our 
forces into a leaner, more agile and more technically dependent 
force requires greater spectrum access. Adequate spectrum 
access was critical to U.S. forces' success in Desert Storm and 
Allied Force, and will continue to be crucial to the 
Department's ability to meet the security challenges of 
Enduring Freedom and beyond.
    The use of wireless technology is the only way to 
effectively connect mobile, tactical ground, air, sea and space 
forces.
    The Federal Government band between 1755 and 1855 megahertz 
is one of the bands being considered for implementing third 
generation mobile service, or 3G. The Department of Defense 
uses this band for satellite control, battlefield radio relay, 
air crew combat training, precision weapons guidance and for 
more than 120 systems requiring crucial communications 
functions. The relocation challenges are many, but center 
primarily around acquiring technically comparable spectrum, 
providing adequate and timely financial compensation, and 
providing adequate time to complete the transition without 
losing operational capabilities.
    The constant readiness of forces depends on the spectrum 
access to train and maintain our proficiency. The success of 
our operations occurs because we can pass time-critical 
communications, navigation, and reconnaissance information over 
satellites, fly well-trained combat air crews, launch precision 
guided munitions and deploy our tactical radio relay network. 
In an era of transformation to a lighter, more mobile force 
structure and increased operational requirements, these 
spectrum dependent weapons serve to significantly enhance the 
operational capabilities of U.S. forces.
    Enhanced situational awareness and precision engagement 
provides combatant commanders with capabilities essential for 
the prosecution of their mission. Any loss or degradation of 
this capability will potentially have severe consequences on 
national security. A loss would likely result in mission 
failure and increased casualties in future operations and loss 
of vital, timely intelligence information to the President and 
senior leaders. I am not talking about dropped calls. I am 
talking about the potential of dropped lives.
    The critical issue of spectrum relocation requires a 
balancing of economic and national security needs. The United 
States has global security responsibilities requiring spectrums 
for military systems that are far greater than any other 
nation's. This is part of the benefits and the burdens that 
accrue to our Nation given our worldwide leadership in the 21st 
century. We will continue to work in the spirit of cooperation 
and openness with the other executive branch departments, the 
FCC and other interested parties in order to reach the best 
decision for our Nation on this important issue.
    I will be happy to answer any of your questions.
    [The prepared statement of General Kellogg follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.022
    
    [GRAPHIC] [TIFF OMITTED] 80940.023
    
    [GRAPHIC] [TIFF OMITTED] 80940.024
    
    [GRAPHIC] [TIFF OMITTED] 80940.025
    
    [GRAPHIC] [TIFF OMITTED] 80940.026
    
    [GRAPHIC] [TIFF OMITTED] 80940.027
    
    [GRAPHIC] [TIFF OMITTED] 80940.028
    
    [GRAPHIC] [TIFF OMITTED] 80940.029
    
    [GRAPHIC] [TIFF OMITTED] 80940.030
    
    Mr. Shays. Thank you very much, General.
    Admiral.
    Admiral Mayo. Thank you very much, Mr. Chairman, 
representative Gilman. I am Vice Admiral Dick Mayo, Director of 
Space, Information Warfare, Command and Control for the Chief 
of Naval Operations.
    Thank you for this opportunity today to discuss the 
importance of radio frequency management and Navy spectrum use 
and the relationship to training, military readiness and 
national security. I would like to take the next couple of 
minutes to highlight some important issues.
    Use of the radio frequency spectrum is critical to the U.S. 
Navy. Every deployed battle group and amphibious ready group 
and every Navy shore facility around the world is dependent on 
access to a wide range of spectrum to successfully train and 
sustain operational readiness in support of warfighting CINCs.
    To illustrate this, I would like to call your attention to 
the story board in front of you, and I also hope that you have 
a viewgraph presentation. What this represents, Mr. Chairman, 
is the deployment of the USS Theodore Roosevelt Battle Group 
and the USS Bataan Amphibious Ready Group.
    It illustrates their workup back in the United States, the 
training at ranges, the training off the East Coast, their 
deployment overseas to the theater of operation in Operation 
Enduring Freedom. All kinds of ships, all kinds of aircraft. 
And what I seek to impart to you with this story board is that 
the realistic training done back in the United States with the 
specific use of spectrum is the same spectrum that they then 
operated with over in the theater of war.
    And the only differences that I would call your attention 
to are the additional frequency and spectrum that we require to 
interoperate with our allied and coalition partners. But that 
heavy use of realistic spectrum and workup translates into 
success while deployed. And it enabled the Teddy Roosevelt 
Battle Group and the Bataan Amphibious Ready Group to 
contribute to the combined task force and contribute over 6,500 
sorties and 4.3 million pounds of ordnance dropped on target.
    As we continue our transformation toward network centric 
warfare force, spectrum continues to be key to the transfer of 
vital information, be it voice, video, imagery, targeting or 
intel. It is a critical force multiplier, warfighting enabler. 
Assured access to spectrum is an absolute imperative for the 
Navy and therefore the national security. But our training and 
readiness, like for the rest of DOD, has been impacted by the 
cumulative effect of a variety of spectrum related issues such 
as spectrum reallocations from government to private sector 
uses in the past few years and increasing spectrum scarcity, 
and these spectrum related constraints have contributed to 
reduced training realism, range scheduling constraints and 
complexity, and increased fuel and logistic support costs 
because units must travel further to more distant ranges.
    Training is the foundation of the Navy's combat capability. 
There is a direct correlation between realistic training and 
successful performance in combat and military operational 
readiness. This operational readiness preserves the peace and, 
when necessary, wins the war.
    In summary, Mr. Chairman, the USS Theodore Roosevelt Battle 
Group and the USS Bataan Amphibious Ready Group are examples of 
successful deployments and operations that were due in large 
part to access to spectrum that they could use, the same 
spectrum that they could use while deployed.
    These kinds of evolutions that are referred to, as far as 
workups and training on ranges on the East Coast and West 
Coast, are done three to four times a year by successive battle 
groups and successive amphibious ready groups. So this is 
constantly ongoing. Further loss of access to spectrum to 
include the 1755 to 1770 megahertz band without comparable 
alternate spectrum, adequate and timely compensation, and the 
flexibility to transition our incumbent uses somewhere else 
will severely impact the fleet operations and readiness 
training.
    I thank you and the committee members for this opportunity 
to be here, and I look forward to your questions.
    [The prepared statement of Admiral Mayo follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.031
    
    [GRAPHIC] [TIFF OMITTED] 80940.032
    
    [GRAPHIC] [TIFF OMITTED] 80940.033
    
    [GRAPHIC] [TIFF OMITTED] 80940.034
    
    [GRAPHIC] [TIFF OMITTED] 80940.035
    
    [GRAPHIC] [TIFF OMITTED] 80940.036
    
    [GRAPHIC] [TIFF OMITTED] 80940.037
    
    [GRAPHIC] [TIFF OMITTED] 80940.038
    
    [GRAPHIC] [TIFF OMITTED] 80940.039
    
    [GRAPHIC] [TIFF OMITTED] 80940.189
    
    Mr. Shays. Thank you, General. This committee had the 
opportunity to spend a night on the Roosevelt before it 
embarked on its latest engagement, and obviously it was very 
impressive. But it blew my mind to think that the average age 
was 19. They were so efficient, so capable and 19 years old.
    Admiral Mayo. Yes, sir. Our sailors are so impressive, and 
they are dynamite.
    Mr. Shays. Now, we can't get carried away here. Our entire 
military is awesome. It is very impressive the caliber of our 
people. It is a credit to all of you that is the case.
    General Woodward.
    General Woodward. Yes, sir. Thank you very much, Mr. 
Chairman and the whole members of the subcommittee, and a 
special thanks I think is due to Ms. Grace Washbourne and all 
of her activities, because I honestly believe you have a 
history-making hearing in this regard, and the opportunity to 
speak to you on behalf of the Air Force and my responsibilities 
as the senior communicator for the Air Force. I can't say 
enough for you in terms of the importance of this spectrum to 
the Air Force and certainly our DOD and the Nation and the 
national security issues.
    I think it starts with your comment as well; that is, we 
are really talking about a finite usable RF spectrum. We need 
to understand that as we go through this debate and this 
discussion with your hearing. It also points out the 
importance, I think, as the IT, information technology, 
revolution is taking place and our dependence on moving our 
ones and zeros in this digital age that we have going. It just 
draws even that much more importance. Combine that with 
September 11th and a lot of things have changed in the way we 
view spectrum and the success of the United States and success 
inside of the world, as the case may be.
    Could we ever have imagined that airborne warning and 
control system [AWACS], was watching the skies over New York 
City, or that our F-16s were flying combat air patrol over our 
Nation's Capitol. I think things have changed dramatically.
    If you use an example, and I wish you would put the story 
board up for just a second if you are in control of that. You 
also have a paper copy of this I believe as well. You should 
have.
    The importance of this is just to show you one single 
platform, one weapons system, 50 antennas, a lot of them are 
multiple antennas. It shows you the complexity of what we are 
really talking about, from the 3 megahertz to the 9 gigahertz 
range, just for this platform that does air traffic control. It 
does air to air, it does air to ground, it does multi-megawatt, 
surveillance radars with anti-jam, it has Satcom capabilities 
for beyond line of sight, command and control and navigational 
aids, electronic warfare, datalinking associated with it, 
global Positioning System that is associated with it, all of 
which is interoperable on that platform but it is interoperable 
with the forces for the other services and the other agencies 
that have responsibilities for it.
    The complexity is absolutely phenomenal. That I think is 
what we are really talking about. Now, this is following around 
the United States. For our structure--you can take that down if 
it is all right. For our structure, come September 11, when we 
changed our focus and we looked a lot internally for the 
surveillance and the protection that was necessary for our 
critical assets as a result of this, the services put together 
a 24 by 7 operation so that we can in fact work spectrum 
requirements in a hurry. And I am very, very proud of our 
relationship with the NTIA and our ability to do these between 
the services.
    We put both the software and the spectrum terminal, we call 
it Spectrum 21. We actually installed it down at NTIA so that 
we could process some requirements. I will give you a couple of 
examples. Clearing AWACS over metropolitan areas. And now 
consider all of those antennas and all of that spectrum on that 
plane where you don't want to have interference.
    Consider helicopters and what they need on board for search 
and rescue operations and their capabilities. Consider the 
datalinking that actually goes on so you can talk weapons 
platform to weapons platform, and in fact you talk to the Aegis 
ships that were out in the harbor as well and shared that, by 
the way, with the FAA activities to do the deconfliction. 
Cleared ultra wideband spectrum. That is in the thousand 
megahertz range. That was done in about 90 minutes. I think 
that is a record, by the way.
    Mr. Shays. What was done in 90 minutes?
    General Woodward. Actually cleared the use of a spectrum 
for ultra wideband, for the use of that spectrum both in New 
York City and in the Pentagon, because it was used to look for 
individuals and things of that nature because of its ability to 
do what it can do.
    Mr. Shays. Was that a temporary clearing?
    General Woodward. Yes, sir.
    So immediately following that, we have all of these 
dedicated managers that are very much involved in how to make 
and do creative methods to make the right things happen on 
behalf of this Nation, all of it I believe around national 
security responsibilities, so the focus is tremendous.
    The truth is, our need for spectrum is just as critical 
every day of the year, not just for these particular events, 
and I would second Admiral Mayo's comment with regards to the 
range structure and the training that is necessary. It is the 
same training that you are going to do, perform day-to-day as 
you are going to perform in war. You have got to have access to 
the right levels of spectrum. Whether that is on the range or 
any other activity, that is going on as the case may be.
    If you talk a scenario, and let's go to for a minute, if we 
will, go to Operation Enduring Freedom in the Afghanistan area. 
You have got air traffic control taking place, you have got the 
AWACS platform that I showed you that is flying, you have got 
satellites that are flying, you have got Global Position 
System, you have got the tankers that are up that are doing the 
refueling for the assets, you have got the airlifters that are 
up there moving the cargo, as well as dropping foodstuffs at 
the same rate--in fact more so than the bombs are dropping.
    You have got the fighters up. You have got unmanned aerial 
vehicles that are flying. You have got air space deconfliction 
taking place. You have got electronic warfare taking place. You 
have got the air superiority. You have got to have spectrum 
superiority in order to do all of these kind of things. Search 
and rescue that is up there, the command and control weapons 
guidance that is going on as well as the radars for situation 
awareness, predicted battle space awareness. And all of that 
has got to be done together.
    So you have to have assured access to the spectrum and the 
necessity of the bandwidth that is available. In times when you 
look at moving systems to new frequency bands as the services 
have been asked to do over the last few years, aside from being 
very expensive, it also results in unintended consequences. For 
example, one of the bands threatened under the third generation 
wireless commercial development efforts would require moving 
precious guided munitions control higher in the spectrum band.
    What is the significance of that? If you look at the 
physical characteristics of that transmission at that higher 
frequency range, it would force pilots to actually fly closer 
to the target base to release weapons. So you have put them in 
harm's way placing them just that much closer to the enemy 
forces.
    I am not sure how you quantify that kind of risk as we go 
through the debate. I think certainly the legislation that has 
been done for the 1999 and 2000 defense authorization bills and 
the kinds of legislation that has taken place because of it is 
superb.
    The precedence for auctioning spectrum is certainly well 
established and the need for close attention to spectrum 
access, spectrum processes and decision mechanisms for defense 
users will actually be a fact of life for the foreseeable 
future. The potential revenue from spectrum auctions cannot 
overshadow the very real national security risks that may 
result.
    There is the misperception that the Department of Defense 
controls large amounts of spectrum, can readily afford to 
relinquish some of it. The truth is, the entire Federal 
Government has exclusive rights to less than 8 percent of the 
frequencies below 30 gigahertz, and 14 percent below 3 
gigahertz, which is really considered the sweet spot in the 
spectrum, in the frequency spectrum range.
    We must have a spectrum management strategy that strikes a 
balance between the competing requirements of the commercial 
world and the Federal Government so that we can do the kinds of 
jobs that this Nation has asked us to do in the Armed Forces.
    The current processes aren't necessarily on a level playing 
field. Federal users have to submit 5-year reviews of spectrum 
licenses justifying all of the spectrum needs. It is not quite 
the same. Once the industry gains control over a band there is 
really no review. Federal users on a second point also must 
provide early notification of future spectrum dependent 
systems. Commercial users do not have the same strict 
notification approval process.
    And then a third item, the Federal users most also follow 
stringent technical standards for receivers guaranteeing that 
their systems do not interfere with the others. And again, 
commercial users don't necessarily have to follow the same 
guidelines.
    A national spectrum strategy that encompasses all of the 
Nation's needs must be pursued in order to guarantee this scare 
resource is allocated certainly for the common good.
    The Air Force issues are in the World Radio Conference 
agenda. There is about 53 items that I am aware of. Over half 
are space-related. The Air Force is most concerned here, but we 
feel very confident that we in the U.S. Air Force are part of 
the process, whether that is through the DOD process, that is 
the NTIA and the FCC and all of the work groups that are 
associated with it, and we are very fortunate for that.
    I think a special thanks is due to the NTIA and the FCC 
that did what was referred to as the Spectrum Summit on April 
4th and 5th. Those kinds of things also need to occur 
frequently.
    And I would finish up with, I believe the necessity to 
emphasize the national spectrum strategy, that is really 
demanded at this time.
    Thank you very much, Mr. Chairman and committee.
    [The prepared statement of General Woodward follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.040
    
    [GRAPHIC] [TIFF OMITTED] 80940.041
    
    [GRAPHIC] [TIFF OMITTED] 80940.042
    
    [GRAPHIC] [TIFF OMITTED] 80940.043
    
    [GRAPHIC] [TIFF OMITTED] 80940.044
    
    [GRAPHIC] [TIFF OMITTED] 80940.045
    
    [GRAPHIC] [TIFF OMITTED] 80940.046
    
    [GRAPHIC] [TIFF OMITTED] 80940.047
    
    [GRAPHIC] [TIFF OMITTED] 80940.048
    
    Mr. Shays. Thank you very much. Reference was made to Ms. 
Washbourne and the full committee's work. We are--the 
subcommittee has oversight over national security issues. The 
full committee has oversight over anything it wants. We have 
been working together on encroachment, not just radio 
frequencies, but our air bases, our places to train, and we 
think this is an extraordinarily important issue, and I have 
appreciated the work of the full committee in this effort.
    General Boutelle.
    General Boutelle. Mr. Chairman, and distinguished members 
of the committee, thank you for the opportunity to report to 
you on the importance of our Army's access to the radio 
frequency spectrum and its vital role in Army transformation.
    Let me draw your attention to the story board and what 
General Woodward has referred to as the sweet spot. If you look 
from the left to the right of this spectrum, you start at the 
very low frequencies and you move across to the very extremely 
high frequencies and 30 gigahertz. The band that is under study 
is the sweet spot. This shows you the congestion in that 
particular band and some of the devices that operate across the 
spectrum, such as television, cellular phones, microwaves. In 
fact, the attributes you see listed below each part of that 
spectrum show you why that is particularly desirable for the 
military as well as the commercial sector.
    That small piece of spectrum from 17 to 1770 has extremely 
good foliage penetration, smaller antennas, requires less 
power, but is extremely heavy used. It is truly the sweet spot 
for the Armed Forces. And the study shows that we use that as 
it is for unmanned aerial vehicles, Land Warrior, satellite 
linkage and terrestrial radio communications.
    Transformation involves fundamental changes in the way we 
accomplish our mission. One of those changes is the melding of 
information technologies with the radio frequency spectrum 
referred to as network centric warfare. It is really about 
creating synergy by connecting capabilities in a way that 
amplifies combat power. Achieving information superiority will 
allow us to outmaneuver our opponent and gain the technical 
edge needed for victory.
    The radio frequency spectrum is the medium by which 
information is conveyed in the battlefield. It is the glue that 
ties information technology-based capabilities together.
    Over the last 10 years a series of decisions by the Federal 
Government shifted over 247 megahertz of spectrum to the 
private sector. Today we are engaged in the study of 
transferring even more spectrum from government use to the 
private sector.
    Achieving high payoff interim and objective force 
organizational goals will require several novel applications of 
spectrum. We will see significant improvements in strategic 
deployability by reducing the weight of our armored combat 
platforms from 70 tons in the case of the Abrams to around 20 
tons, a significantly improved, highly integrated and fully 
interconnected C4I systems, also known as network centric 
warfare.
    The synergistic effect of network battle command of 
information systems sensors, weapons platforms and spectrum 
make this possible. We intend to maximize warfighter forward 
presence while reducing the presence of support personnel. This 
is accomplished by either leaving selected support personnel in 
the Continental United States or positioning them in a 
protected sanctuary outside of the area of operations.
    We employ satellite communications to virtually bring 
support personnel and forward deployed units together. Typical 
applications are the provisioning of information resources such 
as imagery, logisticians and intelligence analysts.
    I was recently in Afghanistan, and I can report from first-
hand observation how much our Armed Forces rely on this 
capability right now in our war against terror. With the 
satellite links, a ground commander can get immediate access to 
information that can save lives and diminish the knowledge edge 
of our al Qaeda adversaries. In a place where seconds count and 
lives are at stake, the wireless tether is indeed a vital tool.
    Closer to home, spectrum transfers also affect our Army's 
ability to provide support to civil authorities in response to 
natural disasters. In the aftermath of Hurricane Andrew, which 
devastated south Florida during the summer of 1992, the 
Department of Defense deployed troops and wireless 
communications systems such as the Army's mobile subscriber 
equipment, which operates in the band under study, 1710 to 
1770, to support recovery operations.
    Army wireless communication systems were also used again 
when Hurricane Iniki hit the Island of Kauai in September 1992. 
As in Florida, wireless systems employed in Kauai provided 
emergency telephone services in support of fire, police and 
hospital operations. The cumulative effect of spectrum 
transfers is becoming increasingly detrimental to military 
training and system development. Training is a particularly 
essential activity and access to spectrum is vital in conduct 
of realistic training.
    It is tough, realistic training that ensures our soldiers 
have the skills and experience necessary to exceed in the war 
on terrorism and to help civil authorities respond to 
catastrophic events such as Andrew and Iniki. Our Nation relies 
on a prepared Army that is able to employ multi-faceted 
capabilities worldwide on short notice.
    Spectrum has been and will continue to be absolutely vital 
to maintain that high level of preparedness. The Army's global 
mission and spectrum allocation rules dictate the bands of 
spectrum which military systems operate. As our Armed Forces' 
access to spectrum has eroded through auctions and transfers, 
we have improved the efficiency at which we use what remains. 
However, in the absence of a national spectrum policy, 
continued piecemeal transfers of spectrum will destabilize the 
development of military wireless and information systems.
    The military's access to spectrum must be assured during 
the development and operational life of equipment in order to 
ensure the Army maintains it's training and technological edge. 
We cannot send our soldiers into combat without the best that 
America has to offer in training, tools and technology.
    Our Army is transforming to meet the changing threats 
across the entire range of modern warfare. Achieving 
information superiority is a fundamental aspect of 
transformation, and the radio frequency spectrum is the 
ultimate enabler. A tactical manifestation of transformation 
embraces the tenets of network centric warfare to create a 
synergy between essential warfighting capabilities.
    As any great endeavor, transformation cannot and is not 
accomplished alone. As a Nation we must find ways to strike a 
balance between the commercial need for spectrum and the 
fundamental requirement to defend our global interest. Domestic 
prosperity and national security must receive the same level of 
consideration in developing a national spectrum policy.
    We are thankful for the congressional support we have 
received and the foresight of our leaders in recognizing the 
need to change. Without your support, we would be living in a 
20th century Army trying to fight a 21st century world.
    Thank you, Mr. Chairman.
    [The prepared statement of General Boutelle follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.049
    
    [GRAPHIC] [TIFF OMITTED] 80940.050
    
    [GRAPHIC] [TIFF OMITTED] 80940.051
    
    [GRAPHIC] [TIFF OMITTED] 80940.052
    
    [GRAPHIC] [TIFF OMITTED] 80940.053
    
    [GRAPHIC] [TIFF OMITTED] 80940.054
    
    [GRAPHIC] [TIFF OMITTED] 80940.055
    
    [GRAPHIC] [TIFF OMITTED] 80940.056
    
    Mr. Shays. Thank you. I am just going to say to you, there 
is nothing this committee won't do to try to make sure that 
whatever we need to straighten out we straighten out, and I am 
going to be curious to know what interaction you have had with 
other committees, particularly Commerce, if any, on this issue?
    General Shea.
    General Shea. Good morning, Mr. Chairman, distinguished 
members of the committee. I am pleased to have this opportunity 
to discuss the way the Marine Corps is managing the radio 
frequency spectrum and its importance to the military 
readiness.
    Mr. Shays. General, I am amazed. You are the first person 
that speaks away from the mic and can still be heard. Yet we 
are hearing you loud and clear.
    General Shea. Sir, that is the Marines.
    Mr. Shays. That was a set-up question.
    General Shea. The terrorist attack on September 11th again 
reinforced the requirement for our Armed Forces to be ready to 
answer our country's call to duty. Operational readiness is 
only achieved through realistic training. Marine Corps training 
within the United States and abroad is becoming more difficult 
to coordinate and conduct and in some cases is prohibited due 
to spectrum restrictions.
    As our opportunities for training overseas continue to 
decrease, the Marine Corps increasingly relies on invaluable 
training opportunities that take place within our borders.
    Today I would like to provide you an overview of some of 
the current and projected spectrum challenges for the U.S. 
Marine Corps.
    Spectrum encroachment is one of the most significant 
military training and operational challenges we face today. 
Over time our available spectrum has decreased while the 
requirements for spectrum have increased.
    I will highlight some of the general trends we face today 
with representative examples. Frequency encroachment is having 
a negative impact on integrated electronic attack training 
conducted in support of our aviation units. Electronic attack 
is the intentional jamming of radio frequencies and is a vital 
warfighting capability. Among other things we jam radio 
frequencies to defeat enemy targeting of our aircraft by 
surface to air missiles.
    The EA-6B Prowler is our primary airborne electronic attack 
platform. It is in heavy demand and Prowlers routinely 
accompany airborne strike packages, ensuring their safety by 
jamming enemy radar. The requirements to conduct electronic 
attack training is absolutely vital to our Marine Corps air 
crews and their mission success.
    However, obtaining electronic attack authorization is 
becoming very difficult. Often the authorization is so 
restrictive that realistic training cannot be achieved, such as 
the case in the Camp Pendleton in the Miramar area in 
California. For the vast majority of our electronic attack 
training, we are forced to conduct it in offshore ranges or on 
what I will refer to as a last frontier for electronic attack, 
at selected DOD bases and ranges located in the Mojave Desert.
    The Omnibus Budget Reconciliation Act of 1993 established, 
among other things, 16 protected areas throughout the United 
States where the Department of Defense can retain sole use of 
the 1710 to 1755 megahertz band. This frequency band in the 16 
protected sites are essential for Marines Corps aviation 
training.
    I would like to draw your attention to the map of the 
United States and point out that the 16 particular areas 
represent a very small portion of the area within the country. 
Though small in area, they are extremely vital to our 
operational readiness.
    In the international mobile telecommunications [IMT], 2000 
frequency band of 1755 to 1850 megahertz is of major importance 
to the Marines Corps. The Marines Corps has over 400 radio 
vehicle-mounted multichannel radio systems that operate in this 
band.
    In addition to use by our aviation and combat service 
support units, these radios currently provide our only reliable 
transmission means for robust data connectivity from the 
division headquarters down to the regiment and the battalions 
of our ground units.
    As a result of the 1993 Reallocation Act, we lost nearly 
one-third of the Mark 142s available frequencies. Any further 
reallocation of the spectrum within this bank will essentially 
eliminate the use of these communications backbone systems 
within the United States.
    Congested frequency bands pose serious problems in other 
areas as well. The Pioneer unmanned aerial vehicle, for 
example, shares the same frequency band as our Track 170 radio 
system. 50 megahertz of this band was reallocated in the 1993 
legislation. The Pioneer provides a number of capabilities, 
including the delivery of real-time video to Marine maneuver 
units operating ground-based terminals.
    It has proven to be a very valuable capability in recent 
operations, providing timely reconnaissance, targeting, and 
other critical information without endangering our air crews.
    Track 170's are the Marine Corps' largest wideband 
terrestrial multichannel radios. They are used in almost every 
major Marine Corps training exercise throughout the United 
States and abroad. They are capable of passing large volumes of 
data that can be used for a combination of voice, video and 
datalink applications.
    The Army and the Air Force also use these radios. The 
challenge is that the Marine Corps operations require a 
simultaneous employment the Track 170's and the UAVs even 
though the UAV is extremely prone to radio frequency 
interference from the Track 170. It is important to have the 
ability to manage frequency assignments around this 
interference problem.
    While not owned by the Marine Corps, we rely heavily on 
various other Department of Defense systems and joint systems 
that are operated by our sister services and agencies. Systems 
such as the Global Positioning System, various satellite and 
intelligence systems, and aircraft platforms such as the Air 
Force's AWACS, JSTARS, and Rivet Joint are all invaluable to 
the Marine Corps operating forces. These systems are also 
heavily dependent on spectrum for operations and training.
    Any future spectrum reallocations or restrictions imposed 
on the use of these joint assets will have potential to cause 
serious degradation to integrated training and to war-fighting 
capabilities.
    In the Marine Corps, we've taken steps to deal more 
effectively with spectrum management problems we face today and 
in the future. In the past 2 years, we have more than doubled 
the number of frequency managers that we have. We have placed 
these new billets at all major subordinate commands. That's the 
division, the wing and the combat force service support group, 
as well as with our marine expeditionary units that are forward 
deployed with the amphibious ready groups around the world that 
Admiral Mayo mentioned earlier.
    Additionally, we are implementing a new military occupation 
specialty for warrant officers effective in January 2003. These 
spectrum manager warrant officer billets will be positioned 
strategically throughout the Marine Corps senior commands to 
respond to today's and tomorrow's ever-increasing spectrum 
challenges.
    We train as we expect to fight. Access to spectrum for 
realistic war-fighting training is essential to ensure our 
country's future wars are won with a minimum loss of life and 
that we can effectively integrate our war-fighting 
capabilities. That access is especially critical in the United 
States for the training of our Marines. We must be ready for 
military operations today and tomorrow. As the Nation deals 
with the ever-increasing demand for RF spectrum, the 
requirements for maintaining a well-trained and ready military 
force must be part of the equation.
    Sir, thank you very much for the opportunity to address the 
committee on this important topic.
    Mr. Shays. Thank you, General.
    [The prepared statement of General Shea follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.057
    
    [GRAPHIC] [TIFF OMITTED] 80940.058
    
    [GRAPHIC] [TIFF OMITTED] 80940.059
    
    [GRAPHIC] [TIFF OMITTED] 80940.060
    
    [GRAPHIC] [TIFF OMITTED] 80940.061
    
    [GRAPHIC] [TIFF OMITTED] 80940.062
    
    [GRAPHIC] [TIFF OMITTED] 80940.063
    
    [GRAPHIC] [TIFF OMITTED] 80940.064
    
    [GRAPHIC] [TIFF OMITTED] 80940.065
    
    [GRAPHIC] [TIFF OMITTED] 80940.066
    
    [GRAPHIC] [TIFF OMITTED] 80940.067
    
    [GRAPHIC] [TIFF OMITTED] 80940.068
    
    Mr. Shays. I thank all of you.
    What I'd like to do is ask a few general questions. I'm 
going to expose my ignorance, but I learn a lot faster that 
way.
    Let me say to you that I think the one thing that you don't 
need to convince this committee of is the incredible need for 
the ability to communicate--have all our weapons systems 
communicate, all our personnel. I think the hearing established 
that quite well, but it's been established with this committee 
by all the places that we visited and so on, all the technology 
we've seen, all the people we've spoken to and so on. So I 
think we can spend, you know, not as--we don't need to 
emphasize that again.
    I have religion on the fact that I've learned in my nearly 
16 years here that my job is to make sure it's not a fair 
fight, and to make sure we have superiority, and the one area 
we have superiority in a number of areas but obviously our 
ability with technology and communication is pretty 
extraordinary.
    What I'm unclear about is actually what is the state of 
affairs today? I know--I can visualize it physically in terms 
of the fact that we're fearing the encroachment. I need to know 
if we just made sure there was no further encroachment, would 
we be just fine, or do we need to clear out some spectrums and 
certain radio frequencies and do a whole readjustment? I need 
you all to share that with me.
    Mr. Price, we'll start with you, but I don't know if we 
need to jump--you know, go down the line. Do you get a sense of 
the request I'm asking? I want to know the state of affairs 
today.
    Mr. Price. Yeah. Thank you. That's a great question, and we 
appreciate it.
    There are a couple of different ways to look at it. The 
national spectrum process, as people have talked about--and I 
commend NTIA and FCC for both having started processes to look 
at how spectrum is managed in the United States, because 
currently it's a bifurcated system, where government spectrum 
is looked at separately from commercial spectrum. So, 
therefore, you end up having a government plan or strategy and 
a commercial strategy, not one overall national strategy, and 
therefore it doesn't allow the United States to set overall 
priorities. And if we did set overall priorities--I'm going to 
use your words--that we should make sure it's not a fair fight. 
I'll put that at the top of my list for how to set priorities.
    But, therefore, the problem becomes that there's constant 
uncertainty. You never know if you're going to be able to stay 
in the spectrum you have. You have to, every 5 years, as the 
General mentioned, go and justify that the systems work and 
that they're still using the assignments. That's fine.
    But whenever there's a hint that this group may be looking 
at this spectrum, this new technology needs new spectrum, even 
before it becomes to a full out and out either rulemaking by 
the FCC or NTIA, because the lead time for the Department of 
Defense for our acquisition and our procurement cycles are so 
long and these issues are so important, we spend a lot of time 
just sort of--when there are rumors out there that people may 
be eyeing pieces of our spectrum or you get various inquires 
that--the way I look at it, it doesn't give the Department of 
Defense predictability and certainty that we'll be able to use 
the system for its full life cycle.
    Mr. Shays. So, Mr. Price, I gather that the big concern is 
how you protect what you have?
    Mr. Price. That's one of the concerns. And that's--that 
now, given the fact that there's a viability study for certain 
of our spectrum, as some of the view graphs showed, that is a 
concern.
    Mr. Shays. But----
    Mr. Price. But there's a--I'm sorry.
    Mr. Shays. No, go ahead.
    Mr. Price. So, clearly, protecting what we have, in your 
words, is very important, but as the Department moves to a 
network-centric world where--the analogy is the commercial 
world is going to broadband Internet access. Everyone wants 
high bandwidth, high data rates, Internet access, wireless 
scenarios across the country. The military is doing the same 
thing. So the forward-deployed young men and women are 
reliant----
    On a ship, you're using wireless communications. On an 
airplane, you're using wireless communications in hard-to-reach 
locations. So as we move to a transformed military, even 
without September 11th, we have more and more spectrum needs; 
and 2 years ago the Department of Defense concluded a spectrum 
requirements analysis which showed that, by 2005, our spectrum 
usage would grow by 90 percent.
    Mr. Shays. OK. Let me--I'm going to turn to Mr. Gilman 
soon, but I'm going to try to get--I'm asking very general 
questions so they seem to require--I guess they do require long 
answers, but I want to make sure I'm having other people jump 
in here.
    Could any of you just respond to that first question, maybe 
add some detail?
    General Kellogg. Sir, if I may, today while we may not have 
any immediate spectrum needs, we are finding that----
    Mr. Shays. I just need to know when you say ``we,'' we the 
Defense----
    General Kellogg. We in the military immediate today. But we 
have found post September 11th and also before that----
    Mr. Shays. So you're speaking for all the military 
branches?
    General Kellogg. Yes, sir, speaking as a member of the 
Joint Chiefs of Staff.
    But prior to the attack and post September 11th, we're 
finding that, just like commercial interests, our need for 
spectrum is in fact growing; and as we transform our forces 
more into a network-centric, information-based force in all 
probability it will continue to grow.
    It should be reminded, sir, that we did, in fact, lose 
spectrum. We lost 247 megahertz during the 1993 Omnibus Budget 
Reconciliation Act and the 1997 Balanced Budget Act. We're 
still able to use that spectrum.
    Mr. Shays. OK. Let me just ask you this, though, because, I 
mean, I'm--I know I voted for the 1997, and I think the 1993, 
and I'm--I don't remember a lot of debate about the military. 
Did you all--did you get much profile in this debate or--as you 
recall? I don't know if you were involved in this.
    General Kellogg. Sir, I was not involved with it, and I 
have to take that for the record.
    I'm a combat arms officer; and, until a year ago, sir, 
spectrum to me was a place the Philadelphia Flyers played 
hockey in. So I've gotten pretty--I was a user of it, but I--in 
the last year to 18 months, we have seen an enormous need into 
the future of spectrum now. But----
    Mr. Shays. OK. Can anyone else jump in, though? What would 
be helpful for me and to establish in the committee is whether 
this was a knockdown, drag-out fight in which Members of 
Congress were fully informed of the potential challenges that 
we would be facing, or whether we just got into other aspects, 
and the military got shoved aside. Admiral.
    Admiral Mayo. Mr. Chairman, I think General Kellogg is 
right. Only in recent years have we really become focused in on 
the need for the spectrum we do have and probably for some new 
allocations. But, as I told you, the Teddy Roosevelt and the 
Bataan did succeed in their mission. You know, they had the 
spectrum and the State side to train up, and then they were 
able to employ same spectrum and succeed overseas.
    But with the increasing use of PGMs, of video links, work 
with our allies, you know, 30 navy ships over there, about 100 
total ships, if we're going to link up and net with all of the 
ships over there to have a significant----
    Mr. Shays. You see, that part I understand. I truly do. In 
other words, you're trying to say you need it, and you're 
giving me an example of the need. Right?
    Admiral Mayo. Yes, sir. We need it, and we probably need 
even more.
    Mr. Shays. So I'm just going to just accept it on face 
value right now.
    You know, one of the things is I would have loved to have 
had this briefing--who did this briefing from my staff? What is 
DCSIM? Are you meeting with the groups that--what is that? I'm 
sorry?
    General Kellogg. It probably came out of the Army, because 
that's Army Special Operations Forces.
    Mr. Shays. OK. Right. But, see, my staff is kind of like 
the intelligence community. They share about 75 percent of what 
they have with me. The good stuff they keep for themselves. I 
have an unfair advantage, because they can't respond, but I--
they just get back at me later when they write a speech, and 
the second page there's nothing on it.
    What I'm sensing is that, frankly, being candid, the 
military was focused on other things, DOD, and we realized 
later, my God, we have this need and maybe we should have 
been--Congress should have been more alert. The military should 
have been more alert.
    So just give me a sense--General, you want to make a 
comment, and then I'll----
    General Woodward. Mr. Chairman, I'd love to address that 
with you, if it's all right.
    I believe the processes today are much more visible than in 
times that have gone by. Now, that's maybe a poor comment to 
make, but I think it's a very appropriate comment. We have 
nowhere as near the level of involvement like we had today--
today that we have--we did not have that same level of 
involvement, I would tell you, maybe 10, 12 years ago, really.
    I also think that the necessity, because of this natural 
resource called spectrum today and what's really gone on with 
the information technology arena, that's what has made it rise 
up to this level.
    There's some things that have got to be done, in my 
estimation, too. There's probably smarter, better disciplined 
use of technologies that have got to be explored with this 
finite RF spectrum, and certainly all of us have the 
responsibility to be awfully good stewards of what we do have, 
as the case may be. We're always finding better ways, but I 
don't think we can stand any more losses. Certainly the Air 
Force will make that comment in a hurry.
    You asked earlier about levels that we have done to try and 
educate, inform technical exchanges on the Hill. With the 
services, the Air Force did a pretty good campaign plan so that 
we got to the House Armed Services Committee staffers, we got 
to the Senate Armed Services Committee staffers, the House 
Energy and Commerce Committee staffers. Every once in a while 
principles, by the way--certainly, your own Government Reform 
Committee a couple of different times, and also to the staffer 
for the Speaker of the House we spent moments with over this 
last period of time, all of which was to help the committees 
and the people themselves understand operational necessities 
within the Armed Forces, if I can say it that way, specifically 
to us.
    But I think we really covered across the board the 
uniformed services, because we all have the same kinds of 
issues and we are dependent on each other in many respects for 
that interoperability. So maybe that's a slightly different 
slant for you.
    Mr. Shays. OK. Thank you.
    General Shea. Mr. Chairman, even today----
    Mr. Shays. Your mic. Sorry.
    General Shea. Even today we're dealing with crowded 
spectrum issues. As an example, in an amphibious operation, the 
Marine Corps and the Army use a thing called EPLRS, Enhanced 
Position Location Reporting System, for both data and position 
location. The Air Force has a data link, the surface-to-air 
data link; and then with the Navy out there--and we're talking 
about joint operations now--the Navy, when they're using their 
Hawkeyes out there, there's potential for that Hawkeye, because 
they're operating in similar bands, to override or inject 
interference into the EPLRS and the sata links.
    So we, in fact, today do have this problem that we tend to 
try to work through. So it certainly is emerging, but it is an 
issue that we deal with on a regular basis in today's world; 
and the more complex and the bigger operation that you're 
dealing with, the more challenging the situation.
    Mr. Shays. See, General Boutelle, you wanted to say 
something first; and then I'll go to you, General Woodward.
    General Boutelle. Yes, Mr. Chairman. Back to your original 
question, you know, it's like land. We're not making any more, 
as Will Rogers said, and we all would like more spectrum. We 
understand that, and technology is helping us use what we have 
more effectively. And do we need more? Yes. Do we have other 
issues? We have other issues.
    In our radar spectrum, we're starting to have an issue with 
encroachment on our radars. That's outside this band, and we 
haven't mentioned that, but there are other evolving issues 
where we need to maintain that spectrum, at least what we have, 
and use it more efficiently. Yes, I think universally we would 
like more spectrum, but we also understand the environment 
we're operating within.
    General Woodward. Mr. Chairman, as maybe a good example for 
what General Shea brought up and the other services here is the 
fact we've gone the software-programmable radio route to get 
better efficiencies and economies, by the way, for all of the 
different bands, cross-banding through joint tactical radio 
system, which is a real good example for all of us to use so 
that we can have better efficiencies out there. There are other 
things like that that are possible, no doubt.
    Mr. Shays. I guess--I have two other questions, one I'm 
going to have on my second round, and that's to understand 
frequencies overseas, because we can say what we want to have 
in the United States, but, you know, that's not where, in many 
cases, the action is. So when I have my second round, I'm going 
to ask you about overseas.
    But I want to ask you this general question. Is it--are we 
too late? I mean, have we blown it and are we going to have to 
just kind of disrupt and make a lot of tough decisions to undo 
what we've done? Or if we manage what we have and protect it, 
we'll be OK?
    Mr. Price. Sir, I don't think we're too late. This is a--
the Department of Defense is in this for the long haul, as well 
as commercial sector, and working with NTIA and FCC, it's an 
interactive process. When a spectrum is allocated--a portion of 
the spectrum is allocated for a commercial use, whether it came 
from the commercial or the government sector, and the business 
venture fails, as has happened, or whether the broadcasters, 
for example, want to upgrade or move up from analog to digital, 
spectrum becomes available. So the real question is to form a 
national consensus and a national strategy to set priorities so 
that when there are these blocks of spectrum, particularly 
below three gigahertz as people talked about as really the 
critical spectrum that become available, we know in what order 
to set the priorities to see who gets the allocations.
    Mr. Shays. Let me go to Mr. Gilman. Anybody else want to 
respond before I go----
    General Woodward. I'll just make a comment, if I can.
    I think you've got to have an extremely well-informed, 
well-educated, well-prepared people that can deal with this, 
and they've got to be very active all of the time. It's not a 
matter of appointing somebody, you know, a couple months before 
a meeting occurs. It's a matter of we really need to understand 
this in toto in order for us----
    I also think it's--you know, we're not losing the battle 
any way, shape, form or manner. I think it's exactly what you 
have inferred earlier, is that we've got to understand better 
management and what that really means, not just the Department 
of Defense, the whole Federal sector and the whole commercial 
sector across the board for this Nation. When we go overseas, 
we work close nation approvals. Each one of the services does 
that. And----
    Mr. Shays. We'll get to the overseas issue, because I want 
to go to Mr. Gilman, but I want to say that what I don't think 
I need to spend time--any more time asking in the hearing but 
would love to have interaction with both the full committee 
staff and my subcommittee staff and your staff--I'd love to 
know what--where we are in that dialog with Congress and how 
well we are involved in educating.
    One of the--we don't--this committee doesn't write 
legislation, we don't appropriate money, but we look at 
programs to see how well they work, and then we get the other 
committees to act. And we've been extraordinarily successful, 
very successful in a whole host of different ways, and this is 
one way that we can, you know, look--I think can be very 
helpful.
    Mr. Gilman, you have as much time as you want.
    Mr. Gilman. Thank you, Mr. Chairman.
    We're finding that spectrum management is becoming more and 
more difficult due to the lack of the availability in the radio 
spectrum. How to balance competing demands is going to be 
extremely difficult.
    Let me ask Mr. Price. There have been a number of attempts 
at reorganizing spectrum management in the past, and we 
understand DOD is engaged in yet another attempt that began 
with the creation of your position. How is this reorganization 
effort different from prior attempts, and what's the 
responsibilities of your office?
    Mr. Price. Great. Thank you, sir.
    The current reorganization effort at the Department of 
Defense is, I think, wider in scope than in the past. I think 
it's fair to say, and the chairman's comments point it out, 
that for many years the Department of Defense either didn't 
realize or because of technology didn't feel the need to have 
spectrum and frequency issues--in fact, all information 
technology issues at a senior level in the Department of 
Defense as well as in the services. That's changed over the 
past 5 to 10 years. The Department in 1997 acknowledged that 
they wanted to raise the profile, and through Deputy Secretary 
of Defense John Hamre's efforts created OSM, the Office of 
Spectrum Management.
    Now, as an Office of Secretary of Defense or OSD-led effort 
to try to work with the services and formulate strategic 
planning and provide guidance, we've taken that a step further. 
The Defense Science Board, which advises the Secretary of 
Defense, a year and a half ago came out with a study that 
suggested spectrum management be raised to the Deputy Assistant 
Secretary level, which is why I was able to come down and be 
with you today from New York to join the Pentagon about 6 
months ago.
    When I started, one of the first things I did was look 
internally at how spectrum is managed within the Department. 
And working with generals and the admiral to my left and 
others, we concluded that, while OSM, or Office of Spectrum 
Management, was a good first step, we're intending to evolve 
that into the DSO, or Defense Spectrum Office, which will 
further allow for coordination and communication with the 
services.
    Mr. Gilman. When did you take over your responsibilities?
    Mr. Price. In November, sir.
    Mr. Gilman. And have you made any progress so far?
    Mr. Price. I think we have. The most--I think one of the 
most important things we have done is to begin the process to 
establish the Defense Spectrum Office. I've signed out a 
memorandum that's in coordination within the Department to 
create the Defense Spectrum Office, which will take elements of 
the Office of Spectrum Management and some other parts, 
increase the resources and allow the Department to have much 
stronger proactive as opposed to just reactive processes.
    I think one of the fair criticisms of the Department over 
the past 10 or 15 years is that we've tended on these issues to 
be more reactive; and wanting to get ahead of the curve and be 
proactive, the Defense Spectrum Office will help.
    One important point to note is that DSO will have a brand 
new department for new technologies, because we understand that 
new technology is an important----
    Mr. Gilman. So nothing has been done in a coordinating 
effort until your office had been created?
    Mr. Price. I don't think that's fair to say. I think a 
number of steps had been taken, but I think we're taking it a 
step farther and widening the scope of the reorganization.
    Mr. Gilman. I understand Chairman Powell (FCC) recently 
created a Spectrum Policy Task Force charged with facilitating 
development of an integrated plan for spectrum allocation and 
for a more market-oriented spectrum allocation policy and more 
clearly defining spectrum interference and usage rights and 
aggressively promoting spectral efficiency. Are you aware of 
that proposal?
    Mr. Price. Yes, and I've met with Dr. Kolodzy, who chairs 
that task force.
    Mr. Gilman. Are you integrated into that study?
    Mr. Price. We are. One of the important policy objectives 
of the Department of Defense is to play an active role in 
national and international forums, and NTIA's spectrum summit a 
few weeks ago and the task force that you mentioned of the FCC 
are two primary areas where we'll be playing an active role.
    Mr. Gilman. So you will have your office looking at 
spectrum usage. We have Chairman Powell's office looking at it. 
We have the Secretary and Department of Commerce looking at it, 
more specifically the NTIA's Interdepartment Radio Advisory 
Committee. Do all of you meet together to work on this, or are 
you all off into different directions?
    Mr. Price. That's a fair question. We do meet, and I think 
it's fair to say that the spectrum system and processes in the 
United States work today, but only because of the dedication 
and hard work and efforts of a lot of people at NTIA, FCC and 
other parts of the government. I think it's despite the system, 
not because of the system, and the fact that there is a 
bifurcated system with NTIA managing certain spectrum and the 
FCC managing other parts of spectrum does create a situation 
that is challenging for the users.
    Mr. Gilman. Well, Mr. Price, how often do you meet with 
these other organizations?
    Mr. Price. There's a--well, there are a number of different 
forums. I'm not--I don't know how often the IRAC meets, but--
every--the IRAC that you mentioned meets every 2 weeks. There's 
a current study group for the 3G band, an intergovernment 
agency which meets every 2 weeks. I talk at least weekly with 
senior people at NTIA and FCC. So it's more informal than 
formal, on a daily or weekly basis.
    Mr. Gilman. What's the status of the Joint Chiefs of Staff 
needs study to establish a joint spectrum management 
organization that would report to you?
    General Kellogg. Sir, we're still in the process of working 
that, the reorganization of it.
    Mr. Gilman. So, really, essentially what we're confronted 
with in looking at this problem is that all of these groups are 
just beginning to take a good hard look at what has to be done 
and to try to work together. Am I correct in my analysis?
    General Kellogg. Sir, I will tell you in my experience is 
about 15 months in this, and it goes back to what Mr. Shea said 
earlier. A few years ago we were asleep at the switch when it 
came to spectrum. Until recently--only until recently have we 
made a very focused effort to be very concerned about it.
    An example, in 1997, my organization and the Joint Chiefs 
of Staff had one person working spectrum issues. Today, we have 
four people plus one contractor. So we've taken interest. So, 
in the process, we are reorganizing, we looking to better 
manage the spectrum that is out there for the joint forces.
    Mr. Gilman. What about the underlying problem that we have 
too few satellites up there? If we have limited spectrum 
because of the limitation on satellites, what are we doing 
about increasing that?
    General Kellogg. Sir, if I may address that, you always 
have to bound that in two areas: military satellite 
communications and availability of commercial spectrum on the 
commercial satellites. We understood when we set up our 
military satellite system that we would always have to depend 
on commercial satellite transponders to augment the spectrum 
that we use in combat or training operations out there. It is 
very, very heavily cost dependent, in billions of dollars, to 
put up those satellite constellations. So we rely quite heavily 
on the commercial satellite constellations that are currently 
there.
    As we stand today, the commercial augmentation allows us to 
use our combat systems effectively. With the advanced wide band 
systems and the commercial systems, we will see a need for more 
and more growth of the satellite communications capability, 
which includes the commercial. But today we have adequate 
bandwidth to support our operations. Into the future, we'll 
probably need more. But it will not be just military, sir. We 
have depended quite heavily on the commercial satellite 
industry to give us additional----
    Mr. Gilman. Are you saying to me, General, that right now 
there's enough satellite spectrum availability for the 
military? It's just a matter of finding better use of it, is 
that what you're saying?
    General Kellogg. Sir, there is enough available bandwidth 
when you add the commercial and the military satellite 
bandwidth capability. It costs you a lot of money, though, 
because we rent the transponders or the frequency from the 
commercial satellite center out there. Many of those satellites 
are not U.S. owned. So some of the constellations are a foreign 
owned-consortium, are owned--primarily U.S. owned.
    The concern we have with using commercial satellites is 
we--is the concern about assured access. Are we going to have 
continued access out there? But today, sir, when you use the 
military bandwidth and today the available commercial 
bandwidth, it is adequate for our needs today; and in the 
future we're clearly going to be depending more and more on 
satellite capability.
    As you brought up about the use of the Global Hawk, the 
only way we're able to use the Global Hawk to its full 
efficiency is, in fact, to use commercial transponders on 
commercial satellites.
    Mr. Gilman. Is there any proposal for having a military 
satellite at some future date?
    General Kellogg. Sir, we do have military satellite 
constellations in the--of course, in the SHF and HF range and 
also in the UHF range. But again, sir, we need to augment the 
military satellite constellations with the commercial satellite 
constellations.
    Mr. Gilman. Well, Mr. Price, are you optimistic that you're 
going to be able to meet all of these problems with the 
existing band?
    Mr. Price. Well, on the satellites, it's less a spectrum 
issue than an infrastructure issue. The actual satellites and 
the hard assets, as opposed to just a spectrum issue.
    But the broader question is, no, we do not believe that, 
given our transformation to a network-centric military, given 
all of the requirements, given potential missions in homeland 
defense, that over time the Department will have enough 
spectrum with current allocations.
    Mr. Gilman. And are you making some plans for the future to 
improve that spectrum?
    Mr. Price. We are. Part of the answer is to protect what we 
have so we don't lose anything. Part of it is to figure out 
where we need to seek from FCC and NTIA additional spectrum. 
And a big piece of the way many people feel that the spectrum 
issues will be solved is through technology. The Department of 
Defense spends hundreds of millions of dollars a year on 
research and development of the services, DARPA, and other 
parts of the Department of Defense on spectrum efficient 
technologies.
    Mr. Gilman. One last question, Mr. Price. How often do you 
meet with the panelists that are assembled before us today?
    Mr. Price. That's a good question. I spent all last week 
with General Kellogg in Europe talking about interoperability 
issues with our allies. I probably talk to these gentlemen 
weekly. We have a standing once-a-month breakfast, which 
actually is this Thursday, called the Senior Communicators 
Breakfast, where we talk about these issues. And, on a weekly 
basis, either I or my Director of Spectrum Management, who's 
sitting behind me, meets with the action officer level people 
from these and other organizations within the Department to 
talk about spectrum-related issues.
    Mr. Gilman. Do you feel there's adequate recognition of the 
importance of the military's need for spectrum availability in 
our administration today?
    Mr. Price. That's a fair question. Clearly, within the 
Department of Defense, there is. The Secretary and the Deputy 
Secretary----
    Mr. Gilman. Beyond--I don't know the Department of Defense.
    Mr. Price [continuing]. Are both aware of those issues.
    In terms of--I think there's a broad understanding of the 
importance of military spectrum in the administration, I do, 
and I believe that we will be well-served and well-protected.
    Mr. Gilman. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time I'd just like to just pursue the issue of 
overseas, and then I'd like to have our staff ask a few 
questions.
    The issue is simply that--again, my ignorance shows here, 
but it would seem to me we have control over spectrum in our 
own sphere of influence, the United States, but we can't really 
control it overseas. So I'm just not sure how that's resolved, 
and maybe someone can share that with me.
    General Woodward. I'll take a shot at it, Mr. Chairman.
    Each of the services, as we do our operations and we also 
do it with the joint world, we have people, force structure, 
that are educated in how to do this, and they do spectrum 
requests to get allocations and permission sets. A lot of it's 
referred to in the satellite world as host nation approvals, so 
that you have landing rights and you can, in fact, move your 
information back and forth in a particular nation. We've done 
this for years and years and years.
    What's interesting is you're not necessarily dealing with 
another's minister of defense. You're dealing probably with 
the--that governmental leadership itself, because they usually, 
inside their own borders, they see ownership of----
    Mr. Shays. I guess I need to expose my ignorance more, and 
then you'll be able to jump in a little better. Do I make an 
assumption that the same spectrum that we use in the United 
States when we communicate to someplace in the Indian Ocean, 
it's the same spectrum of communication, is that correct?
    General Woodward. Yes, and there may be a different 
application in their case as they saw fit. That's when you have 
collision, because you're going to----
    Mr. Shays. But--and technically in the open space of the 
Indian Ocean, I mean, who are we negotiating with? Are we 
negotiating with India? I mean, can----
    General Woodward. Navy, you've got that one.
    Mr. Shays. You don't fly over the Indian Ocean?
    Admiral Mayo. He flies over the Indian Ocean.
    Mr. Chairman, in international waters, we operate, you 
know, in the allocated spectrum; and if we start to get into 
the littoral, we would have an obligation to negotiate and work 
with host nations or nations that we're interoperating with.
    To harken back to a previous question that Mr. Gilman asked 
about organization, we're all for it in the Navy, you know, a 
sharper focus in DOD on spectrum, and we're supporting the 
efforts there that Mr. Price is leading. But with the few 
assets that we do have in terms of people, we want to make sure 
that we continue to place our people forward with our fleets, 
forward with our number of fleet commanders and forwarded CINCs 
overseas, because these key people help work those host nation 
approvals on an ongoing basis to allow our Navy to operate when 
we're in the littoral and not in international waters and 
operate with our host partners.
    Mr. Shays. You know, this issue is huge, and it points out 
the challenge of diplomacy. Something that the general public 
may not understand is, when we take an action on something 
totally unrelated, you can get a host country that basically 
says, you know, that spectrum that you were trying to have 
access to? Forget it. I mean, and--anyway. Yes, sir?
    Mr. Price. Mr. Chairman, if I could just followup on that, 
when Ms. Washbourne and I went to go visit the U.S. Central 
Command, CENTCOM in Tampa, we heard a briefing from CENTCOM 
about spectrum issues, and they raised the exact point that you 
raise. And it goes back to protecting the spectrum at home. 
There's a radio system that we use here in a certain band, and 
we train and test with it here. We wanted to use it in a 
country, in Central Command's region, a particular country. It 
took 6 years, we were told, to get host nation approval, 6 
years to be able to use that radio in that spectrum in that 
country. It's there now. We have the host nation approval. 
We're operating the radio in broad parts of Enduring Freedom.
    Now, going back to your point, what people don't----
    Mr. Shays. Now the radio is obsolete. So--no. I mean, 
seriously, it used to be the big ate the small. Now it's the 
fast eat the slow, and it--you've almost become irrelevant in a 
world where you have to negotiate for 6 years.
    Mr. Price. Yes. But the systems work, and unless we get 
funding to throw away that legacy system and buy a new system, 
we're still operating that system.
    Now if you turn back to your question earlier, what happens 
in the United States if we lose spectrum or a force for maybe 
legitimate commercial reasons to move into another band, we 
have to start that 6-year clock again, because----
    Mr. Shays. Let me ask you this question: If we resolved all 
of the challenges we had in the United States and encroachment 
for the next 15, 20 years--in other words, we had a sense of 
what we needed, we protected it, we devised a system that gave 
you the confidence you would have--does that solve 80 percent 
of the problem worldwide, or is it just, you know, 25 percent 
and that we still have 75 percent to deal with overseas? See, I 
don't have a sense of the implication of this in terms of the 
world community.
    General Shea. Mr. Chairman.
    Mr. Shays. Yes.
    General Shea. If I might, I'd like to just go back and add 
a little bit of clarity to your initial question.
    Mr. Shays. Sure.
    General Shea. Each one of the CINCs has a Joint Frequency 
Management Office, and their job is to coordinate frequency 
assignments within their given theatres of operation. I was the 
J6 out of CINCPAC, and I had a department or a branch within 
the J6 of CINCPAC. The sole responsibility was to go out there 
and coordinate frequency assignments, both for the operational 
forces and, in the cases of new equipment coming aboard, 
working what's called the JF12 process. It's a forum that is 
recognized among many of the----
    Mr. Shays. OK. But when you say coordinate, do you mean 
coordinate within the branches in the United States or 
coordinate around the world?
    General Shea. Coordinate around the world.
    Mr. Shays. OK, so----
    General Shea. Within the given theatre.
    Mr. Shays. Right, within the given theatre. But I guess 
then my question to you, you would have some expertise in 
answering this, then is 80 percent of the effort overseas? Is 
80 percent of our communication overseas? Is--do you get a 
sense----
    General Shea. I would argue, sir, that, for the most part, 
when we develop capabilities, we primarily focus on what goes 
on within the continental United States, recognizing that, as 
an international body, there really isn't a well--what I would 
call a well-formulated process to ensure that those 
capabilities that we may take into a given theatre are 
coordinated.
    Mr. Shays. OK. I'm going to ask the question again slightly 
different. If we dealt with the encroachment issue for the 
foreseeable future in the United States, have we dealt with 
half of the problem, 25 percent of the problem, 80 percent of 
the problem? And I see General Woodward, you're kind of shaking 
your head. Is it because we don't know or because----
    General Woodward. No, I don't know how to quantify it, to 
tell you the truth. What you need to be assured of, though, 
there is a structure that works it, and it works it very hard. 
It works it through the CINCs--all nine CINCs, the commanders 
in chiefs themselves, with the joint staff, with the services 
directly. They also work with the State Department and all the 
activities overseas.
    Mr. Shays. I understand we have that working, but what I'm 
trying to visualize is the reality--first of all, you're going 
to go against the telecommunication industry. You are in the 
United States. It is a multibillion dollar--and I say this not 
disparagingly. I mean, it's a big business. We make the private 
sector work well, we make consumers have better ways to 
communicate, all of those things. But I know the difficulty 
that you have dealing with the United States. It's huge.
    And, you know, some people don't vote against the defense 
budget, say they want to make sure they're helping the 
military, but they would vote out of ignorance in some cases 
for your loss of spectrum or encroachment of an Air Force base 
and so on. So you've got a huge problem.
    But I'm thinking, when you deal with countries in Africa, 
when you deal with countries in Europe, when you deal in the 
Middle East, they have no incentive, it seems to me, to say, 
well, let's make life easy for you. We're going to solve all of 
your spectrum problem. I would think they would say, screw you.
    General Woodward. There are actually some common practices 
that go on. For instance, if we're coming up with a system 
review, it includes the review for the host nations that you're 
talking about, the other nations that are involved in there. 
That's done through--again, through the CINCs and through all 
of the agencies that we've been talking about.
    We have a couple of major organizations. NATO is one. CCEB, 
Combined Comm-Electronics Board, is another one of the English-
speaking nations. All of those matters are dealt with in all of 
their sessions, and they meet formally on this. There's a full 
committee within NATO that meets on this all the time.
    Mr. Shays. Right. But isn't it fair to say that, given all 
of our weapons systems and our way of communicating, that we 
are way out in front of the rest of the world? I mean, I'm 
seeing nodding heads, so the answer is pretty much yes. So we 
have a much more vested interest in dealing with the spectrum 
issue than other countries do. I'm sure China is not 
cooperating with us, you know, in terms of the--I say I'm sure 
and--who knows?
    I guess--I'm not going to expose my ignorance any more than 
I have. It's just--it is interesting that, one, we can't 
quantify it, and it gives me even more sympathy for the tasks 
you all have. Yet you want me to know that, where you can, 
you're trying to work it out, but it's diplomacy. It tells us 
the extraordinary need--it just reinforces--one of the things I 
just would say for the record, that you all have to be 
diplomats in the military. When I travel overseas, sometime it 
is most effective diplomats and some of the most important 
meetings I've had are meetings that you all have set up, you 
know, people within the various branches, with military 
personnel overseas, you know, whatever country, the French 
military, the Turkish military. You have in some cases almost 
better contacts than our own diplomats, and I can understand 
why you need them. Thank goodness you have them.
    General Kellogg. Sir, if I may, you asked a question 
that's--instead of quantifying, the advantage of removing 
encroachment of the military bands is you would give 
consistency and constancy to our training requirements here. 
The United States is leading the world, and if they say it's 
maintaining our frequency bands for training in a very 
consistent manner, they follow with us. What they don't want to 
see is they don't want to see movement or irregularity or any 
confusion in the way we do business; and if we can train 
effectively in the United States, then we can do what we need 
to do to get done overseas.
    Mr. Shays. I guess it just reinforces something that I've 
wondered about. I mean, even if we thought NATO was not the 
same viable organization given the cold war, just to be able to 
work with NATO to deal with frequency is a huge advantage.
    Yes, General.
    General Boutelle. Mr. Chairman, I spent the last 9 years as 
the designer and developer of radio systems and satellite 
systems, many of which for my sister services. In that process, 
as we came up with a new requirement to design a satellite 
system, I would go to my satellite--or my frequency managers; 
and we colocated--the services colocated those in 1997. And I 
go in and say, we need to build a radio or a satellite system 
to do this. What spectrum is available not only in the United 
States but look across our international agreements and find 
out what is the best one for me to operate in.
    There was almost none that we got automatic free lining 
rights in other nations or all nations. They came back and they 
would say, look, if you're going to build a new radio or a new 
satellite link, here's one that you have the best opportunity 
to negotiate in those nations around the world. And that was a 
constant process. Our material developers worked with our not 
joint spectrum office but our colocated spectrum office.
    Mr. Shays. And then do we have to buy them?
    General Boutelle. Say again.
    Mr. Shays. Do we have to buy the spectrum space?
    General Boutelle. We have to negotiate that spectrum space 
in those nations through the CINCs.
    Mr. Shays. And sometimes that costs money?
    General Woodward. There are those who have tried to charge 
us for the use of the spectrum. That is a true statement. We 
don't do that.
    Mr. Shays. Is there a significance--and I know I need to 
get to the other panel, so I'm just going to--there are a lot 
of questions I'd love to ask, but is there a significance that 
Europe is going to have its own global positioning? I mean, it 
seems to me if they were dependent on us for global positioning 
that gives us a little bit of a leeway in saying you've got it 
and we want to cooperate, but we need cooperation in spectrum 
issues. Or does it make them more vulnerable, given that they 
may need some cooperation from us in their own global 
positioning? Anybody have a----
    General Kellogg. Sir, they are talking about resurrecting a 
system they call Galileo, which is their GPS system. You know, 
it's going to be very, very costly for them to do so. They're 
discussing it right now. They took it off the table about 6 
months ago because of cost. Their concern, of course, is 
because our GPS system is a military-run system. But I think as 
a predictor--and I always hate to predict anything--I'm not too 
sure the Europeans will, in fact, send up the Galileo 
constellation.
    Mr. Shays. I'm sorry. I thought they had decided to do it 
the last few----
    General Kellogg. As of last week, sir, they were talking 
about trying to put it up, but the debate is how much money 
it's going to cost them.
    Mr. Shays. Yes, sir.
    General Shea. May I just make a point here? When you're 
talking about NATO, you are really for the most part talking 
about a regional force. When you look at the United States, 
we're a global force, and--which requires each country--that 
spectrum is a sovereign piece. It's a natural resource within 
those countries. So that adds to the challenge for us. We've 
got to go across the entire globe where----
    Mr. Shays. You know, this--I think it's a huge challenge 
for all of you, and I--and it's one that I obviously never 
focused on.
    We're going to invite counsel to ask a few questions, and 
then I'm going to ask the professional staff of the full 
committee to ask.
    Do you have any questions? OK.
    Mr. Halloran. Thank you.
    We've spent a great deal of time in this subcommittee 
talking about homeland security, and I'm curious in terms of 
Operation Noble Eagle what kinds of interoperability or 
spectrum deconflicting was--what did you encounter there as 
kind of a precursor of the homeland security mission that 
Northern Command might come across soon and--which leads to the 
question, who is doing spectrum issues for Northern Command?
    General Kellogg. Sir, let me answer the second part before 
the first part, because I'll defer, frankly, to the people who 
are involved more closely in Noble Eagle. But Northern Command 
is just being stood up right now. So we're not even sure who 
the commander is yet, let alone the spectrum manager yet. So 
I'd defer that one to the Joint Staff.
    But because so much of this Noble Eagle is done primarily 
over the air, I'll turn to General Woodward to answer on this.
    General Woodward. Yeah. Needless to say, very focused on 
some things that had to be changed. I gave you some examples in 
the oral discussion that we had, but I think we did in the 
neighborhood of 3,000--you guys help me--3,000 spectrum 
requests of one nature or another to do all kinds of different 
things that we normally wouldn't have done in the United 
States.
    All of that was worked because the services--each of us 
have a dedicated organization. The organizations got together. 
We set up a 24-hour, 7-day-a-week operation to process all of 
these with the help of the NTIA and the FCC.
    Mr. Halloran. Just for spectrum issues?
    General Woodward. That's correct, just for spectrum issues.
    Mr. Halloran. And you had to deal with the FAA region by 
region, or was that a central point of contact?
    General Woodward. Actually, we did it all directly out of 
Washington right here and dealt with every one.
    Now, the CINC has dedicated spectrum people for that CINC 
that was in charge of that operation. We also deployed people 
that were necessary to go to a couple other headquarters to 
make the right things occur for them as well. So there was an 
all-out effort to make a lot of things happen that weren't 
normal. It was absolutely abnormal in that respect.
    General Shea. Sir, we're in the process of procuring a land 
mobile radio system, what we refer to as a land mobile radio 
system, and one of the requirements for that system is that it 
includes a communications interoperability with off-base 
Federal, State and local authorities that will be involved in 
our antiterrorism forces; and our antiterrorism forces will be 
equipped with these same types of radios.
    Mr. Halloran. And would that land in the band--I think the 
World Radio Conference is going to discuss a proposal to try to 
harmonize public safety bands. Is that in that range as well?
    General Shea. Yes, sir.
    Mr. Halloran. OK.
    Admiral Mayo. Sir, if I may, there's a first responder 
spectrum of 139 to 144 that's very important, of course, in 
terms of homeland security; and the Navy I think, as the other 
services, are involved right now with DOD in trying to work the 
process so that we can see how we can best support that, 
whether it's through, you know, frequency sharing or 
alternative kinds of technology. But we do have high-density 
areas in the Navy, such as Norfolk and San Diego, where these 
kinds of radios are in abundance, and there is a lot of 
interference right now with first responders. So this is 
something that we are working with DOD.
    Mr. Halloran. Thank you, Mr. Chairman.
    Mr. Shays. Ms. Washbourne.
    Ms. Washbourne. Mr. Shays, I want to thank you for one of 
the greatest privileges of my 18-year career up here. Thank you 
very much for this opportunity.
    Mr. Shays. Well, it's a privilege to work with you.
    Ms. Washbourne. Mr. Price, you talked a little bit about 
the defense spectrum organization. It sounds like that's 
probably one of the hardest jobs at DOD. Can you tell me what 
you see are going to be your greatest challenges? Will it be 
interoperability? Will it be acquisition? Will it be having 
your position represented outside DOD?
    Mr. Price. Ms. Washbourne, I'm not sure I could pick one. 
Organizing internally I think we've done a pretty good job of 
in the last 6 months and, in fact, in the last number of years. 
The service is coordinated extensively, and in part for 
technical reasons, because they share--even in exclusive 
Federal bands, they share with themselves; and the Joint 
Spectrum Center down in Annapolis, which has hundreds of 
engineers, focused on a lot of the issues that the chairman has 
been talking about, helps coordinate a lot of those issues for 
the services.
    So internal issues is one. Clearly, preparation for the 
World Radio Conference and other international forums coming 
up, the World Radio Conference coming up in June 2003, is a 
very timely and important issue.
    Participating in the efforts by NTIA, FCC and others, 
looking at a national spectrum strategy, we clearly want a 
Department of Defense seat at the table and our views known, 
because we want to make sure it's not a fair fight; and 
ensuring that the acquisition process, the procurement process 
within the Department of Defense takes into account spectrum 
interoperability issues early on in the program is very 
important.
    There have been some new regulations, 5,000 series, in the 
last year or so, which have I think tightened up and emphasized 
the importance of having spectrum certification very early on 
in the procurement of a major system.
    Ms. Washbourne. General Kellogg, when I was down at CENTCOM 
people were talking about deconfliction and interoperability 
between our allies. Could you just give us some specific 
examples of what those terms mean to you?
    General Kellogg. The largest issue we are having on the 
interoperability is the ability of our coalition nations to 
work together with their nets. What we are finding with our 
allies is that they depend on us to do the leading, because 
they have not spent, for various and probably good reasons, the 
amount of money that we have spent on information technology 
systems. Because of that, it has caused some interoperable 
difficulties. That means they rely on us to either provide the 
expertise, provide the equipment or be able to work the systems 
together to more closely align those systems.
    With CENTCOM, the amount of different nations involved with 
the ongoing operations is enormous, and their capabilities are 
quite diverse. So the big challenge we have is, in fact, 
interoperability, not only in CENTCOM.
    This meeting that Mr. Price and I were at last week in 
Europe with six nations that included primarily the English-
speaking nations and the French and the Germans, the biggest 
issue we had there was the concern about interoperability into 
the future and the concern that the United States of America is 
moving so rapidly into the future that they cannot keep pace, 
and it's going to--and they will not be able to spend the 
requisite amount of money, and we're going to have to come up 
with solutions to make sure that our allies are, in fact, 
interoperable.
    Again, it's just the ability for them to communicate with 
us with their combat net radios or on digital traffic.
    Ms. Washbourne. I want everybody to comment on the World 
Radio Communications Conference that is coming up in June 2003. 
I understand that one of the things that's on the table is the 
consideration of the harmonization of frequencies. General 
Kellogg or Mr. Price, can you tell me what DOD's position is on 
that?
    Mr. Price. I'll first make a general comment that the 
Department of--I feel confident in saying that the Department 
of Defense is farther ahead in preparing for the World Radio 
Conference than we have been in a long time. There's a special 
group, the international permanent working group, comprised of 
all of the stakeholders within the departments and the services 
and agencies within DOD that's dedicated to World Radio 
Conference preparation. We've identified all of the agenda 
items, classified them in order of priority and are now working 
them internally and with our colleagues at State and other 
departments. So I feel pretty good about where we stand with 
the World Radio Conference.
    That doesn't mean we don't have a lot of work to do. It 
doesn't mean we want to--don't know who the Ambassador is, all 
of those kinds of issues.
    On the particular item you referred to, one of our major 
concerns, I would say a critical item, is preventing adverse 
World Radio Conference actions to identify or harmonize bands 
in a way that could limit military operations, particularly 
with respect to public protection and disaster relief. That's 
an agenda item that we have significant concern about.
    Ms. Washbourne. General Kellogg, what are the concerns of 
the Joint Chiefs of Staff at that conference?
    General Kellogg. I believe the concerns and the way to 
approach them were well said by Mr. Price, and we will follow 
their lead on that.
    The concern about harmonization is I think--how we approach 
that is basically country on country. And we are finding--and 
primarily the concerned item is with the 3G area of what they 
talk about harmonization. In fact, we are finding most of those 
nations in the three regions, Regions 1, 2, and 3, are 
harmonizing their 3G in a band that we are currently using, not 
in the military but as a PCS band. But I think we are--the 
preparation in the future, I really don't have any concerns. I 
think we will be well prepared, as we were last time, and 
working very closely with OSD as we go forward.
    Ms. Washbourne. Admiral Mayo, General Woodward, Major 
General Boutelle, General Shea, can each of you tell me what 
your top concerns as a service are in front of that conference 
as well and how they are being addressed? How was your input 
given in this process?
    Admiral Mayo. For the upcoming world conference? We are 
working closely with DOD and Joint Staff and we have some 
specific issues that we are going to be concerned about that we 
will work through this process on radar band allocation, Earth 
station vessels, probably ship self-defense.
    So we think we are geared up to work it correctly with the 
appropriate folks in DOD.
    General Boutelle. I think, ma'am, from our perspective, I 
want to be careful that the WRC's regional treaties don't 
unnecessarily complicate the coordination that needs to go on 
between any country in which we may be operating and our 
forces. I think we have to be careful that the solution sets 
that come out of this, we have got to make sure that they fit 
into our requirements, because the physics of the band dictate 
different frequency bands for different types of applications 
or different types of uses.
    And I think we have got to be careful that it doesn't--
whatever the results of the treaties are, that it doesn't cause 
us undue cost to have to retrofit some of our capabilities into 
capabilities that may not necessarily fit the requirement.
    Ms. Washbourne. General Woodward, we talked a little 
about--in some of our meetings about perhaps having the 
Department of State have a more formalized process with the 
military or having perhaps the Ambassador named years in 
advance versus 6 months in advance.
    Do you have an opinion on that?
    General Woodward. I honestly believe you can't have enough 
of an outreach program on the subject matter at hand, because I 
believe the interest the other nations have in it, it is a 
financial interest, almost 100 percent to me from what I see, 
whereas ours has a different level of concern because of the 
national security aspects of the life and especially now 
because of the heightened awareness that we have from September 
the 11th.
    The Air Force really wants obviously assured access, and 
would love to have assurances and not the prohibitions that 
potentially are there with misguided votes or whatever the case 
may be. So we are very much supportive of the process in the 
DOD because I think it is very, very strong, the strongest I 
have ever seen it in my career. And I have been doing this for 
a good long period of time now, for about 34 years.
    So I am real proud of that. But when you look at the 
harmonization, that is a real interesting word as used, because 
you don't know the consequences nor the impacts that may be 
presented, as General Shea has said, in the different bands 
that are out there. We need to understand what that really 
means, and what that is on the table with whatever working 
groups are doing it, in whatever part of the world they are 
doing it with.
    So I feel good about our involvement. I think again the big 
concern besides the assured access is there are 53 items on the 
agenda. Over half of those for the World Radio Conference are 
space related. The Air Force certainly has its big 
responsibility for the space asset now. That is a very major 
concern for us. So we have devised a special group of peoples 
of interested parties so that in fact we can work that and then 
try to do it directly under the Under Secretary of the Air 
Force level, so you have that level of visibility going on. 
Then it can be worked with--the other services can be worked 
with the Department, and then certainly support ASDC in their 
activities that is going on as well.
    General Kellogg. Ms. Washbourne, just if I may make a--
Ambassador Schottler made the comment when she left the last--
from the last WRC: The sooner you nominate and get the 
Ambassador confirmed for that the better off you are, because 
as the leader of the team, it helps.
    And I think you asked the question about when a--when the 
Ambassador is named. Ms. Schottler made that comment very 
specifically about the next WRC, the one we are going to do in 
Caracas.
    Ms. Washbourne. Thank you.
    I just have a quick clarifying question, Mr. Price. How 
much spectrum does DOD use exclusively compared to the entire 
band, and how much does it share?
    Mr. Price. If we are looking at below 3 gigahertz, the 
exclusive Federal use is just under 15 percent in this heavily 
used spectrum region. About 55 percent is shared, and the rest 
is exclusive commercial. Of the assignments of the--so within 
that band, of all of the Federal assignments, DOD is about 40 
percent. And our use is about half shared, half exclusive 
government.
    Ms. Washbourne. I guess could you just clarify how much 
does the military use versus--exclusively versus everybody 
else, including commercial users, across the entire band?
    Mr. Price. Well, in that--well below 3 gigahertz, it is 
about 15 percent is exclusive Federal; 55 percent is shared, 
and the balance is for commercial. That is for the Federal 
Government. Of the Federal Government use, DOD is about 40 
percent of that.
    General Woodward. I think we operate, though, in every 
Federal band, right? We operate in every single Federal band. 
And then I am told also that if you have--if you talk 300 GHz 
from exclusive it is less than 2 percent.
    Ms. Washbourne. Thank you. Thank you, Mr. Shays.
    Mr. Shays. Thank you. Those were very helpful questions to 
have asked. Is there any question that we should have asked 
that you would like to put on the record and maybe you spent 
some time last night thinking of that hopefully we would had 
asked? Any of you? Sometimes the question you ask yourself at 
the end is the best one.
    General Kellogg. Mr. Chairman, I think there is one thing 
that we didn't bring out, and we are talking about the space-
based assets with Mr. Gilman. We have ongoing--under Mr. 
Stenbit a study that will come to fruition in June called the 
Transformational Communications Study, which each service is 
identifying their bandwidth requirements and how much they need 
so we can lay out effectively the satellite constellations over 
the next 10 years.
    That is the advanced wideband system, the Gapfiller system, 
those systems. So that is coming to fruition. We have the first 
drafts. We are still working on that. That will define what we 
need and what frequencies we need to access those satellites. 
That is just coming to fruition here over the next 90 days.
    Mr. Shays. Great. I thank you all for spending your time 
with us and allowing us to have such a large panel. I think it 
was helpful to do this. I would request, not that you all stay, 
I know you need to get on, but if there is any--at least the 
one person from your staff that could listen to the next panel 
in case we might want to ask you about comments that the next 
panel makes--if that is possible.
    And so, if you have nothing else to say----
    General Woodward. We ought to thank you one more time. I 
personally and professionally tell you, you are doing yeoman's 
work. This is the kind of stuff that really needs to go on for 
this Nation. So thank you.
    Mr. Shays. Thank you for saying that. This is something the 
full committee will be continuing to be involved in very 
deeply. Our subcommittee, we will take it on as a mission, with 
the effort to stop the encroachment and get a workable system. 
And so we will be forcing others to have to deal with the 
issue, which I think will be helpful to all of you. And we are 
trying to work with the other committees. So, again, I am going 
to just make this--to make sure that I am clear on this, that 
any context--if you could bring our committee staff up to date 
as to the state of affairs of communication with the other 
committees and what we need to do as a committee, it would 
really be helpful to us.
    So with that, we will move to the next panel. Thank you.
    Our next panel is Mr. Michael Gallagher, Deputy Assistant 
Secretary for Communication and Information, National 
Telecommunications and Information Administration, Department 
of Commerce; Major General James D. Bryan, Deputy Director, 
Defense Information Systems Agency [DISA]; and Mr. Julius 
Knapp, Deputy Chief, Office of Engineering and Technology, 
Federal Communications Commission. If you would remain 
standing, I will swear you in. If there is anyone else that 
would be testifying, might respond to a question, I will ask 
them to stand as well so that we won't have to swear them in 
later.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all have responded in 
the affirmative. This is a fascinating issue and appreciate you 
all being here.
    I think we will go in the order that I called you, I guess 
the order that you are seated. So, Mr. Gallagher, we will start 
with you.

STATEMENTS OF MICHAEL GALLAGHER, DEPUTY ASSISTANT SECRETARY FOR 
COMMUNICATION AND INFORMATION, NATIONAL TELECOMMUNICATIONS AND 
   INFORMATION ADMINISTRATION, DEPARTMENT OF COMMERCE; MAJOR 
 GENERAL JAMES D. BRYAN, DEPUTY DIRECTOR, DEFENSE INFORMATION 
 SYSTEMS AGENCY [DISA]; AND JULIUS KNAPP, DEPUTY CHIEF, OFFICE 
     OF ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. Gallagher. Thank you. On behalf of Secretary Evans and 
Deputy Secretary Sam Bodman, I appreciate the opportunity to 
testify before you today, and I found the testimony on the 
previous panel to be very interesting in itself.
    Mr. Shays. Thank you.
    Mr. Gallagher. Just a few comments about NTIA's role, the 
spectrum allocation process, a quick overview of use in the 
United States, and then a few comments about 3G ultrawideband 
and international challenges. We will get that done in less 
than 5 minutes.
    NTIA's role is it serves as the President's principal 
policy advisor on telecommunications, as well as to manage the 
radio frequency spectrum used by Federal agencies. It performs 
this task with its group that is located in Washington, DC, 
which includes its Office of Spectrum Management as well as its 
testing facility in Boulder, CO, which does a lot of the 
technical work on interference and frequency measurements.
    We work along with the FCC, the State Department, to 
develop U.S. positions and advocate them abroad. NTIA's role is 
unique in the sense that it looks not only at the spectrum 
necessary for Federal agencies, but also at what is best for 
the country relative to telecommunications policy with a focus 
on efficiency and to look forward and anticipate future Federal 
spectrum needs.
    The spectrum allocation process administered by NTIA is run 
through the IRAC, the Independent Radio Advisory Committee, 
that was referred to in the earlier panel. That panel assigned 
over 90,000 frequencies last year to various government users. 
Over 6,700 of those occurred right around September 11th, in 
the aftermath of those events.
    Over 53 agencies are represented on that panel, though only 
about 20 to 22 members are actually there. Other agencies rely 
on their brethren to look after their interests. DOD is without 
a doubt the most visible, the most technical, and the most 
motivated participant in those meetings. And we have frequent 
contact with DOD on the staff and technical levels, as well, 
Assistant Secretary Victory and I both interact with Assistant 
Secretary Stenbit and Deputy Assistant Secretary Price.
    The FCC and NTIA coordinate on the shared bands of the 
spectrum. The spectrum chart, which is over here, is broken up 
into three categories. They are primarily the government 
exclusive, the shared bands and the commercial exclusive. The 
FCC has jurisdiction over the commercial exclusive and we share 
jurisdiction in the shared bands.
    Spectrum utilization in the United States needs to be 
flexible and dynamic and adaptable. 93 percent of all spectrum 
utilization occurs below 3 gigahertz, as Mr. Price commented. 
That is in the first five bars of the chart from the top down.
    Mr. Shays. Each bar?
    Mr. Gallagher. If you take the five bars, if you were to 
extend them out continuously, it is the top five bars that 
would be down to 3 gigahertz. And 93 percent occurs within that 
range. That is because of the technical characteristics of the 
spectrum and its attractiveness for a variety of uses, 
including mobile communications.
    Finding spectrum below 3 gigahertz for all uses is a 
challenge and uses span space exploration, satellite systems, 
commercial uses, fixed wireless, mobile wireless, as well as 
the defense systems, the flight safety control systems that are 
utilized by the Department of Transportation. Finding spectrum 
for all of these systems is indeed a challenge today. However, 
we are guided by the law and there are two primary laws that we 
draw to the committee's attention that focus our efforts.
    First, the 1999 National Defense Authorization Act requires 
reimbursement for any government user that is required to move 
its systems to make room for commercial use. The President's 
budget this year includes a legislative proposal that a trust 
fund be established to make that be more fluid and more certain 
for the agencies involved so that the cost can be reimbursed.
    The second critical legislative component is the National 
Defense Authorization Act of 2000, which requires for the 
Department of Defense that comparable spectrum be located as a 
condition of moving them out of their current spectrum that 
they are within.
    However, the commercial value of the spectrum can't be 
underestimated. We at NTIA have a view toward management of the 
spectrum for all Americans, for all of these services. And if 
you look at the mobile wireless industry today, there are over 
130 million customers. It has doubled over the last 5 years. In 
addition, it is growing at about 20 percent a year. The growth 
rates are slowing, but we only have half the country possessing 
wireless devices today. Data is beginning now and is on the 
cusp. And we have the rest of the world with a substantially 
greater endowment of spectrum to the commercial wireless sector 
than we have made in the United States.
    These are the facts as presented to us that we have to deal 
with, and how do we allow for the continued growth of these 
services? 50 percent of the U.S. long-term economic growth has 
come from technological innovation, and two-thirds of 
productivity gains that we have achieved over the last decade 
come from technology and telecommunications innovations. So the 
role of spectrum within that is very important in making sure 
that we not only have domestic security but also that we have 
economic security here at home.
    WRC 2000 identified the bands 1710 to 1770. Excuse me. In 
response to WRC 2000, the United States has identified the 
bands 1710 to 1770 and, on the FCC side, 2110 to 2170 for 3G 
allocation. We are doing a viability assessment today for the 
1755 to 1770, and we hope to accomplish and complete that 
viability assessment by late spring.
    NTIA recognizes the need for the commercial sector to be 
efficient in how it uses spectrum as well and has taken public 
positions in support of removal of spectrum caps and more fluid 
leases of spectrum, or so-called secondary markets, so that 
what is already in the hands of the commercial sector, we 
support the FCC's efforts to make it be used more efficiently.
    I would also add that when it comes to ultrawideband, I 
think that is a great success story. It shows how the system 
can work. When I arrived here last fall, the written positions 
of all of the parties were very opposed. Numerous government 
agencies were opposed, including the Department of Defense and 
private sector entities. In a space of 4 months, by working 
very closely with the leadership at the FCC, with a very 
qualified technical staff at the FCC, working technically and 
tenaciously and respectfully with the Department of Defense, we 
were able to achieve an outcome that most said was not going to 
be able to be accomplished. And we did that. By February 14th 
we had that done.
    Now, the docket itself spanned over 3\1/2\ years and had 
over 800 comments in it. It was not an easy process, and there 
wasn't a day that went by I didn't go home worried about 
ultrawideband. But the fact of the matter is we were able to 
bring the forces together to achieve the result, and I am 
encouraged by that as I look to the future challenges that we 
face in spectrum allocation.
    Just a word on the involvement at the Department of 
Commerce. Secretary Evans and Deputy Secretary Bodman are very 
involved in these matters. They make it a point to stay very 
current, and when necessary personally engaged, and if you just 
look at the public positions and speeches and comments relative 
to 3G, relative to ultrawideband and recently relative to our 
request to delay the 700 megahertz auctions, you can see that 
involvement.
    And on the international front, I look forward to answering 
questions on those issues. But it is a very difficult 
environment. As difficult as we have it here in the United 
States, it is over 140 countries that we have to work with 
internationally, and they have their own processes. And our 
Department of Defense, while it is a pillar of our economy and 
a pillar of our society, it is not recognized in those arenas. 
Its needs are often not respected. That is why DOD is a 
critical player with us when we go to the World Radio 
Conference, along with the State Department and the FCC, to 
make sure that we get the best results for the country when it 
comes to utilization of the resource.
    Thank you.
    [The prepared statement of Mr. Gallagher follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.069
    
    [GRAPHIC] [TIFF OMITTED] 80940.070
    
    [GRAPHIC] [TIFF OMITTED] 80940.071
    
    [GRAPHIC] [TIFF OMITTED] 80940.072
    
    Mr. Shays. Thank you, Mr. Gallagher.
    General Bryan.
    General Bryan. Good morning, Mr. Chairman.
    First of all, thank you and the committee for holding this 
hearing on this vitally important topic.
    Mr. Chairman, before I go any further, I would like to note 
to the committee and offer a special thanks to the service of 
Lieutenant General Jack Woodward, who served just on the 
previous committee. General Woodward will be retiring at the 
end of this week, the conclusion of a 37-year career in which 
he has rendered great faithful service to the Nation and to the 
Air Force, not only as a spectrum user and expert but as a 
great friend and telecommunications colleague for many, many 
years.
    The committee and the Nation owes, I think, a great debt of 
gratitude to General Woodward, and I would like to note that 
for the record.
    Mr. Shays. For the record we will note it. It is just a 
disappointment that I couldn't congratulate him personally and 
to thank him personally. But thank you for bringing it on the 
record.
    General Bryan. Mr. Chairman, the issue of spectrum 
management is of prime importance to freedom's defense. It 
enables much of the equipment we use abroad and in the United 
States to defend our Nation.
    Currently, there is virtually no unused spectrum, at least 
that part of the spectrum that has military utility to mobile 
command and control users. Therefore, new uses, new 
technologies, new services, whether with commercial or 
government application, must either replace something else or 
be squeezed in between, among or on top of existing uses.
    Because it is such a scarce resource, we must manage 
spectrum carefully, as we do with other vital resources. 
Technology can help us engineer solutions to some of our 
competing spectrum demands. However, research takes time and 
money.
    One thing that all spectrum users and managers must do is 
to ensure that we employ sound management practices for this 
precious resource. Aside from our management practices, there 
are some other steps we can take to ensure that we get the most 
out of the available spectrum.
    We must begin to look at spectrum sharing options across 
the board. Sharing can be done in many ways, based on time, 
geography or frequency. Our licensing regime already mandates 
sharing based on geography and frequency. But many spectrum 
users don't share on a time basis well enough or often enough.
    Spectrum users, both government and industry, must also 
increase their efficiency. In the Department of Defense, we 
have made great strides in efficiency, through coding, 
bandwidth management, networking, antenna design and 
interference mitigation measures.
    This is something we will continue to improve on and push. 
However, traditional commercial measures of efficiency are not 
always appropriate to measure the Department of Defense 
efficiency. These traditional efficiency measures may not 
always apply to military applications such as anti-jam 
capabilities, to sensors or to robust system requirements.
    Our ultimate objective is to optimize efficiency and 
leverage technology to ensure the warfighter is able to execute 
his critical mission. We may use a particular frequency only 20 
percent of the time as an example, but when we need it, it 
absolutely must be there. We can't afford a dropped call on the 
battlefield when that call may summon medical help or fire 
support.
    We also employ many techniques to accomplish specific goals 
that are not always efficient in a telecommunications sense. 
For example, we use frequency agility and other countermeasures 
to combat jamming. These don't fit into conventional measures 
of efficiency. They use more spectrum than they otherwise 
might, but they do so for a very important purpose that is 
operationally required.
    In addition to these measures, there are things that the 
Department of Defense is doing to minimize our impact on the 
electromagnetic environment. One such measure is using 
commercial systems where appropriate and feasible. Instead of 
developing internal Department of Defense systems, it makes 
sense, for example, to use commercial satellites and commercial 
wireless services.
    I mentioned earlier that we expected a 500 percent increase 
in wideband satellite spectrum requirements. Procuring 
commercial satellite bandwidth excess is one way to minimize 
the impact of that.
    The solutions to many of the challenges related to spectrum 
management lie in technology. Technological advances will yield 
new methods of sharing. Some will allow different users to use 
the same frequency in the same place, based on different 
modulations or power outputs. They might make time sharing more 
effective at the bit level as suggested earlier.
    We have already seen gains in efficiency through 
digitization. We can expect technology to yield further gains 
in sharing and efficiencies, and we must stay receptive to 
these technological gains from a wide variety of sources. We 
should bear in mind, however, that technology is not a panacea. 
It is simply one tool in our arsenal of options.
    We should also work together to develop a national military 
spectrum strategy consistent with a national spectrum strategy. 
National spectrum policy is currently a rather ad hoc 
collection of policies that is less than the sum of its parts. 
The result is wasted resources, wasted time, effort and 
opportunity. We need to find a way to bring new technologies to 
bear more quickly while protecting the rights of incumbent 
users.
    We must find a way to put our public priorities in order 
prior to a decision point, not as the decision is being made. 
National military spectrum strategy can do this for the 
Department of Defense, and a natural spectrum strategy can do 
this for the country.
    It will not be easy to craft a thoughtful, effective policy 
that satisfies all of the entities competing for spectrum 
access, but we must try. To do otherwise does perhaps a 
disservice to the American people and violates the trust and 
responsibility that they have placed on us as stewards of this 
national treasure.
    Thank you, Mr. Chairman.
    [The prepared statement of General Bryan follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.073
    
    [GRAPHIC] [TIFF OMITTED] 80940.074
    
    [GRAPHIC] [TIFF OMITTED] 80940.075
    
    [GRAPHIC] [TIFF OMITTED] 80940.076
    
    [GRAPHIC] [TIFF OMITTED] 80940.077
    
    [GRAPHIC] [TIFF OMITTED] 80940.078
    
    [GRAPHIC] [TIFF OMITTED] 80940.079
    
    [GRAPHIC] [TIFF OMITTED] 80940.080
    
    [GRAPHIC] [TIFF OMITTED] 80940.081
    
    [GRAPHIC] [TIFF OMITTED] 80940.082
    
    Mr. Shays. Thank you, General, very much.
    Mr. Knapp.
    Mr. Knapp. Thank you, Mr. Chairman.
    I am the Deputy Chief of the Office of Engineering and 
Technology at the FCC. I want to thank you for this opportunity 
to discuss the process at the FCC for setting spectrum 
management priorities as well as discussing the 
interrelationship between the Commission and the Department of 
Commerce in balancing spectrum needs of Federal users with 
those of both the public safety community and the commercial 
sector.
    Spectrum management is one of FCC's core responsibilities 
and is becoming increasingly difficult because, simply put, the 
spectrum demand is outstripping the supply. The spectrum 
squeeze is being felt by everyone, from national defense and 
public safety organizations to providers of commercial wireless 
services, to entrepreneurs seeking access to spectrum for new 
technologies.
    The challenge we face in spectrum management is how to 
balance competing demands for scarce spectrum so that we may 
continue to meet high priority needs such as national security 
and public safety, while still providing for the deployment of 
new technologies and services.
    The Commission has taken a number of steps to meet the 
demand for spectrum. We have reallocated spectrum from existing 
radio services to make way for new services such as personal 
communications services and mobile satellite services. We have 
promoted the introduction of new spectrum efficient 
technologies such as digital data, voice and video systems, 
software defined radios and ultrawideband devices. And we have 
introduced market mechanisms such as auctions to ensure that 
spectrum is put to its highest valued use.
    While much has been done already, we know that we are going 
to need to do better if we hope to meet the spectrum demands of 
tomorrow.
    Chairman Powell has observed that the Commission's current 
command and control approach to spectrum allocations may be too 
reactive for the current Internet speed market, and that often 
spectrum allocation decisions do not effectively push spectrum 
to its highest and most efficient use.
    Indeed, the market and not the spectrum allocation process 
needs to be the principal determinant in the success and 
failure of new technology and services. To address these 
issues, Chairman Powell recently created a Spectrum Policy Task 
Force charged with facilitating the development of an 
integrated plan for spectrum policy. Some of the objectives of 
the task force include making recommendations for a more 
market-oriented spectrum allocation policy, more clearly 
defining spectrum interference and usage rights, aggressively 
promoting spectrum efficiency, and reserving and protecting 
efficient spectrum for public safety.
    The work of the task force was only begun recently, but we 
are looking forward to working with other parts of government, 
industry and the public to improve our spectrum policies.
    As you know, we are not the sole managers of the radio 
spectrum. While the FCC has authority over significant regions 
of the spectrum, a significant percentage involves bands that 
are shared with both Federal and non-Federal users. In these 
bands we need to coordinate with the Office of the Secretary of 
the Department of Commerce, or more specifically the NTIA.
    The FCC and NTIA have had a long and successful history of 
working together to manage the spectrum in a way that satisfies 
both the needs of the Federal Government and the private 
sector, but this work is becoming ever more challenging as the 
spectrum is becoming more crowded and we struggle to keep pace 
with the rapid introduction of new technologies.
    We are taking a fresh look at how we can better coordinate 
spectrum management with NTIA. NTIA is to be congratulated for 
recently hosting a spectrum management summit that included 
participation from the FCC, key Federal agencies, industry, and 
academia. One sign of how closely we are working together is 
that all of the panels and working groups were co-chaired by 
the NTIA and the FCC.
    Chairman Powell and Deputy Assistant Secretary Victory plan 
to meet to continue this momentum toward improving spectrum 
management, planning and policies.
    Last, I would like to take a minute to address the matter 
of national defense and homeland security. I can assure you 
that no one takes the spectrum needs of national defense and 
homeland security more seriously than Chairman Powell. Last 
fall Chairman Powell created the Homeland Security Policy 
Council, whose mission includes evaluating and strengthening 
measures for protecting and ensuring the rapid restoration of 
U.S. telecommunications broadcasts and other communications 
infrastructure and facilities.
    The Council also will further ensure that public safety, 
public health and other emergency and defense personnel have 
effective communications services available to them in the 
immediate aftermath of any terrorist attack within the United 
States.
    I would like to thank you, Mr. Chairman, for the 
opportunity to appear before you today. This concludes my 
testimony, and I would be happy to take any questions.
    [The prepared statement of Mr. Knapp follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.083
    
    [GRAPHIC] [TIFF OMITTED] 80940.084
    
    [GRAPHIC] [TIFF OMITTED] 80940.085
    
    [GRAPHIC] [TIFF OMITTED] 80940.086
    
    [GRAPHIC] [TIFF OMITTED] 80940.087
    
    [GRAPHIC] [TIFF OMITTED] 80940.088
    
    [GRAPHIC] [TIFF OMITTED] 80940.089
    
    [GRAPHIC] [TIFF OMITTED] 80940.090
    
    [GRAPHIC] [TIFF OMITTED] 80940.091
    
    [GRAPHIC] [TIFF OMITTED] 80940.092
    
    [GRAPHIC] [TIFF OMITTED] 80940.093
    
    Mr. Shays. Thank you. Just wait 1 second, please.
    By unanimous consent, written testimony by the Department 
of State will be put in the record at this point. It is just 
testimony from David Gross, Deputy Assistant Secretary of State 
for International Communications and Information Policy. 
Evidently no one from the State Department could appear at the 
time we wanted them and we weren't able to reschedule it.
    [The prepared statement of Mr. Gross follows:]
    [GRAPHIC] [TIFF OMITTED] 80940.094
    
    [GRAPHIC] [TIFF OMITTED] 80940.095
    
    [GRAPHIC] [TIFF OMITTED] 80940.096
    
    [GRAPHIC] [TIFF OMITTED] 80940.097
    
    [GRAPHIC] [TIFF OMITTED] 80940.098
    
    [GRAPHIC] [TIFF OMITTED] 80940.099
    
    [GRAPHIC] [TIFF OMITTED] 80940.100
    
    [GRAPHIC] [TIFF OMITTED] 80940.101
    
    [GRAPHIC] [TIFF OMITTED] 80940.102
    
    Mr. Shays. I would like to ask each of you how well you 
think the current process for spectrum management works to 
balance national security and commercial interests.
    But before I do, General Bryan, I need to be clear what 
your responsibilities are. I am trying to sort out what you do, 
and then when you speak it will be more clear to me.
    General Bryan. Mr. Chairman, I was surprised also when as a 
uniformed officer I was invited to join the FCC and NTIA. I am 
not a policy representative for DOD. I am the Vice Director of 
an operational agency that provides in the spectrum arena the 
technical analysis and technical advice, and in fact provides 
the operational support to the combatant commanders.
    Mr. Shays. Let me just tell you why we have you here. That 
is to keep these other two guys honest.
    Now we----
    General Bryan. Noted, Mr. Chairman. I will do my best.
    Mr. Shays. I think the value of you being here is to make 
sure that when we--Mr. Gallagher has responsibility for all 
Federal spectrum concerns of the Federal Government, all 
spectrum concerns of the Federal Government?
    Mr. Gallagher. That is correct.
    Mr. Shays. Basically, Mr. Knapp, your basic focus is 
commercial, private use of the spectrum, correct?
    Mr. Knapp. Correct.
    Mr. Shays. And you are the topic of the day, General, the 
issue of the integration of the military. So I am going to ask 
you to be very keen on those interests. OK? So you have the 
technical expertise, but you are really a representative from 
the military. We wanted someone from the military at this 
particular panel.
    General Bryan. I understand, sir.
    Mr. Shays. So now let me just repeat the question. How well 
do you think the current process for spectrum management works 
to balance national security and commercial interests? Then 
what can be done to improve the process? And who wants to 
start?
    Mr. Gallagher. I will be happy to start, Mr. Chairman. I 
believe the process is extremely challenging. I believe that it 
is strongly dependent on the personalities at the top and the 
leadership that is exerted over the relative participants.
    There are plenty of opportunities for challenges and for 
problems, and the pressure on the process today is extreme. As 
every witness has testified, you have converging interests in 
the same spectrum space, both coming from a position of 
legitimacies vying for an assignment or a priority or some sort 
of allocation that allows their use.
    The system is--while it is challenging, I do believe when 
operated properly is a--it gets the job done. I point to 
ultrawideband. We were able to reach that compromise across 
numerous objecting agencies, private sector entities, and 
different technicians. And I might add that I am the only 
nonengineer at the table, and I was often that way as we were 
going through that discussion. But you had different approaches 
coming from people whose work is fundamentally founded on 
science and on the technical aspects.
    So I do think that it can yield the right result, but there 
is a lot of pressure under the current system. As for 
suggestions on how to improve it, there is a statutory 
requirement that the FCC Chairman and the Assistant Secretary 
for NTIA meet, I believe it is twice a year, to coordinate on 
spectrum planning. I think that is a step in the right 
direction. But at best, it is a legislative pointer as to what 
needs to be done, because so much of this is so detail 
oriented, it is so very technical that it requires a genuine 
commitment at the very highest levels to get the job done.
    So I don't think I can point to any specific legislative 
solution to improve the process.
    Mr. Shays. General, would you like to respond, or let me go 
to Mr. Knapp next. How well do you think the current process 
for spectrum management works?
    Mr. Knapp. Largely, I think it has worked fairly well. Any 
of the issues that the Commission deals with on the policy 
front or that affect spectrum management need to be coordinated 
with the NTIA and the IRAC. All of our decision documents to 
the chairman and Commissioners include a paragraph that fill 
them in on the state of the IRAC coordination and any impact on 
national security or emergency preparedness. So at the highest 
levels of the Commission this is a priority.
    I would agree with Mr. Gallagher that although probably 90 
percent of the issues are resolved in a very constructive way, 
there are issues that have been very difficult from a technical 
and policy standpoint for both of us. We have put processes in 
place to try and resolve them on good, sound technical footing, 
and in a fair way, and I think largely that it has worked.
    Ways to improve the process? Certainly at times the process 
goes slower than I think that all of us would like to do. So 
this--we need to find ways when we are deadlocked to resolve 
those disagreements. And I think also at times there has been 
criticism that the process isn't as open or as transparent as 
it needs to be. That is another area that we probably need to 
work on to try to make sure that where concerns are raised by 
the Federal side that they are made available to the private 
sector.
    Mr. Shays. Before asking the General to respond, does the 
process provide for much visionary efforts? I mean, it sounds 
to me like as I am hearing this system, it is really a kind of 
respond to the crisis of the day. But is the system set up in a 
way that is conducive to saying, let's look at what our needs 
are 15 years from now?
    Mr. Gallagher. Mr. Chairman, that is exactly what prompted 
NTIA to host the spectrum summit on April 4th and 5th, was the 
need to elevate the perspective and the process improvements 
that we could make. What is the look to the future? How do we 
do things better but not in a day-to-day manner, not in a 
tactical-to-tactical step manner, but how do you insert vision 
in? And we had over----
    Mr. Shays. But that suggests congratulations for doing it, 
but it also suggests that the system right now isn't doing it.
    Mr. Gallagher. I would suggest that the system is very 
dependent on the leadership involved. And when the crisis is as 
acute as it can be with several spectrum issues, many of which 
have been listed today, that drives the need to find a better 
way to look farther ahead.
    Mr. Shays. Is that a yes?
    Mr. Gallagher. I would say it is a qualified yes.
    Mr. Shays. General, do you want to respond?
    General Bryan. Mr. Chairman, it is hard work every day. It 
is not a perfect process. And I think that rather than get into 
the individual pluses and minuses of improving this management 
technique or this management process, I believe that the 
baseline is what is missing that would set the foundation for 
improvements, and that is the national strategy that we so 
sorely need and every issue of discussion of prioritization 
inevitably evolves.
    DOD is quite aware of the importance of spectrum to our 
national economy and our wireless spectrum users, and we are 
users of that very technology ourselves. So it becomes a very 
difficult issue every time in trying to strike the balance 
between the military use of spectrum and commercial use of 
spectrum, and inevitably the conversations always go back to 
that fundamental premise: Without a national strategy in place, 
no one else has a standing strategy that is based on that 
foundation document.
    So I believe my No. 1 recommendation I would go back to is 
the need for a national strategy upon which we can develop our 
agency strategies and in our case the DOD strategy.
    Mr. Shays. Let me just tell you--read you what Chairman 
Michael Powell of the FCC wrote. I don't know when he wrote it. 
``Our Nation's approach to spectrum allocation is seriously 
fractured. There have been dramatic changes in spectrum 
requirements and technology and services that use spectrum 
since 1934. But yet while we have made some major strides in 
how we assign spectrum, principally through auctions, 
allocation policy is not keeping pace with the relentless 
spectrum demand. The spectrum allocation system is not 
effectively moving spectrum to its highest and best valued use 
in a timely manner.''
    That is a pretty strong statement. And so the system, 
according to Mr. Powell, isn't working as well as it needs to.
    Are you--is the DOD--I am--just as I look at this panel, I 
am thinking, do you have to work through the NTIA in order to 
make your needs known ultimately? We are not petitioning the 
FCC. You just--I mean sort this out. In other words, what I am 
still not grasping, has the FCC ultimately got oversight over 
the full spectrum or just its commercial side? And does the 
NTIA have its spectrum and are you co-equals, or in fact is the 
FCC saying if the NTIA can't justify a spectrum, we claim it?
    General Bryan. Mr. Chairman, we work with the NTIA. We 
obviously collaborate with the FCC. We attend a lot of 
conferences and meetings with them. But NTIA manages the 
Federal spectrum that we use. So we process our--the process 
for our requirements and our coordination flows though the NTIA 
as the Federal spectrum representative.
    Mr. Shays. See, I mean, from my previous days I basically 
thought of the FCC as dealing with spectrum and the NTIA didn't 
show up on my radar screen. And that can just be my ignorance, 
or it can be the reality that the FCC ultimately gets the right 
to claim this.
    So, Mr. Gallagher, give me a sense of, do you have to 
justify to the FCC why you have spectrum space, or are you an 
entity unto yourself?
    Mr. Gallagher. The FCC is by statutory design an 
independent agency. The NTIA is part of the Department of 
Commerce, is very much part of the administration. So there is 
a very defined line between the two, and we are tasked with co-
managing the spectrum. But as I described, the spectrum is kind 
of broken up into three pieces. If you imagine two circles 
laying over one another, not completely, one part of the circle 
on the right is exclusive government bands. These are managed 
solely by NTIA.
    Mr. Shays. Right. They remain yours no matter what happens 
unless the Congress and the President take away that?
    Mr. Gallagher. That is correct.
    Mr. Shays. So that is yours for----
    Mr. Gallagher. That is correct. Then there is the 
overlapping piece, which we share the need to manage that 
together, because within one allocation of spectrum, one 
assignment, you might have government and the private sector in 
the same.
    Mr. Shays. But is that overlapping in the end the most 
important part? I mean is that--just because I say the volume 
of two circles, it may be that this part of the circle and this 
part of the circle aren't as important as this part.
    Mr. Gallagher. I think, Mr. Chairman, you are onto the 
very--you are astutely on the right direction. In the old days 
it probably was more about what was on the edges of the two 
circles and how do we move more over to the private sector and 
into the commercial space. Today I think there is much more of 
the focus on the shared space.
    As the General mentioned in his testimony, there is a 
strong recognition on both the commercial side and on the 
Department of Defense side that to use the resource more 
efficiently, to meet both of our goals, we need to find those 
opportunities together, which again forces the FCC and NTIA to 
work together and is what prompted the summit and the idea of 
co-hosting every--or co-moderating every panel jointly with the 
FCC and NTIA to demonstrate that we are very committed to 
improving the process.
    Mr. Shays. Let me ask you, General Bryan. What role do you 
play in developing DOD spectrum management policies?
    General Bryan. Sir, the Office of Spectrum Analysis and 
Management [OSAM], is a function of our Defense Information 
Systems Agency. It is one of our subordinate elements. That is 
the element, along with our Joint Spectrum Center, which is our 
operational arm, that we use to provide to our unified 
commands. The sum of those two provide the technical analysis 
and technical advice to Mr. Price as our Deputy Secretary--
Assistant Secretary of Defense for C3I for spectrum.
    Now, we have recognized that is an old construct, and we 
are--the work is underway. In fact the charter, we believe, 
will soon be signed by the Deputy Secretary of Defense to 
establish a new organization, the Defense Spectrum 
Organization, which will provide an even stronger staff advice 
and assistance role for Mr. Price, who is the policy arm for 
DOD.
    So our job is technical advice, technical assistance, 
analysis, best advice on management practices and actually 
executing the allocation of spectrum to operating forces.
    Mr. Shays. Do you sit on any committees to coordinate 
allocation and use?
    General Bryan. I don't personally sit on those. The 
spectrum that we allocate--let me ask for a restatement of the 
question, Mr. Chairman. I am apt to launch into----
    Mr. Shays. This--thank you. This is the question we are 
asking. What DOD committees do you sit on that coordinate DOD 
spectrum allocation and use? It may be that you personally 
don't.
    General Bryan. The allocation of spectrum issuing 
frequencies, an old term, to operating forces, is done through 
the--based on the policies and regulations in effect at the 
Joint level. There are--Joint Chiefs of Staff have advisory 
committees. The Military Communication and Electronic Board has 
a panel. There are a number of entities in the Pentagon in 
which consultation takes place.
    The actual issuance and deconfliction process takes place 
through the various spectrum offices of the Services and of our 
Joint Spectrum Center to make sure that the spectrum--that 
assignments that we are making have been fully deconflicted.
    Now, we do have observer status at other panels. But 
probably, to finally get around and perhaps answering your 
question, Mr. Chairman, the IRAC is probably the--the most 
important committee that DISA as a technical advisor serves on.
    Mr. Shays. What is the significance of Mr. Price's talking 
about the 5-year review? I didn't pursue it with him, but he 
said that the DOD has to justify--or maybe I should ask you, 
Mr. Gallagher. Is it all government agencies have to justify 
every 5 years that they are not just warehousing spectrum 
space?
    General Bryan. Mr. Chairman, I am going to have to take 
that question for the record.
    Mr. Shays. Right. Let me ask Mr. Gallagher. Is this 
something that you are familiar with?
    Mr. Gallagher. I am familiar with it from a discussion we 
had this morning. I am happy to tell you what I have today and 
then supplement that and would be happy to provide that 
information to the committee.
    Mr. Shays. Sure.
    Mr. Gallagher. That is the assignments are made and every 5 
years there has to be a----
    Mr. Shays. The assignments are made by whom?
    Mr. Gallagher. The assignments are made by NTIA, the 
frequency assignments.
    Mr. Shays. So these are the frequency assignments that are 
made to the various government agencies?
    Mr. Gallagher. Exactly. And then on a recurring basis, 
every 5 years, they have to state whether they are going to use 
that frequency or not.
    Mr. Shays. See, I mean--I probably should have pursued it 
with Mr. Price. But there is logic to making sure that we are 
not warehousing this because some day in the future we think we 
may need it. It is not an efficient use of resources. But so 
he--the implication from that was that there is--it takes away 
this sense of certainty that they have it in the future. And I 
guess if we had a national strategy that would maybe help deal 
with that issue.
    Let me just ask a few more questions with you, Mr. Knapp. 
What is the role or the roles and agenda of the Homeland 
Security Policy Council recently established by the FCC 
Chairman?
    Mr. Knapp. Well, a primary role of the Council is to 
coordinate all of the activities within the Commission that 
might relate to homeland defense and national security.
    Mr. Shays. Is this like fire, police, the health 
departments?
    Mr. Knapp. But beyond that, to ensure that we move forward 
on ultrawideband technology that can help locate people when 
there is a tragedy, to make sure that we move along with the 
spectrum allocation at 4.9 gigahertz for public safety, etc. So 
it is a range of actions that we want to make sure that we look 
at in a coordinated fashion.
    Mr. Shays. So what is the status of the policy development 
right now? How are we doing?
    Mr. Knapp. Well, the group meets regularly, and they have 
got a list of action items that they are monitoring, and many 
of them, a couple that I just mentioned are moving ahead. So it 
is also ensuring that we are participating in all of the 
actions of other Federal agencies that have responsibilities 
for homeland defense, so that we are fulfilling our 
responsibilities to make sure that we are doing everything 
possible.
    Mr. Shays. Given that we don't yet have a national 
strategy, we are not set up as well as we need to be for the 
effective use of all spectrum, let me just ask--and we will 
kind of close with this area. I am going to ask Mr. Gallagher, 
how does the NTIA assure Federal agencies are making efficient 
use of allocation spectrum? I am going to ask you, Mr. Knapp, 
what policies does the FCC have to reevaluate Legacy systems to 
determine whether they are put to good use for viable service?
    Mr. Gallagher. Mr. Chairman, the NTIA works very closely 
with the agencies involved to look at the assignments and make 
sure that they are being utilized efficiently. But efficiency 
as it was mentioned in the earlier panel, it is a flexible term 
depending on the mission. In the private wireless market, they 
will measure it one way. The market may measure it another.
    And then still with the Department of Defense we have heard 
the discussion about precision guided missiles, there is a 
whole different notion of efficiency. With public safety 
spectrum and the allocations that would be made in that space, 
that is also measured differently.
    But we have an ongoing process through IRAC to look at and 
analyze that spectrum utilization.
    Mr. Shays. Just explain that last sentence. You have an 
ongoing process.
    Mr. Gallagher. Well, IRAC is the focus of that activity. 
That is where the issues are brought to the fore. That is where 
the evaluations are queued up to be made, and where the 
information flows back and forth to various spectrum----
    Mr. Shays. Your point is you can't have one formula for 
everyone in terms of efficiency given the different needs?
    Mr. Gallagher. I am becoming more and more persuaded of 
that point. When I came to my job from the private sector, I 
had a very market driven approach to the value of spectrum. But 
after you are exposed to the very important mission of the 
Department of Defense, what the Department of Transportation 
does with MLS, ILS, how radars like the ARSR-4, ARSR-9, and 
TDWRs work, you become more familiar with the--and the 
importance of those missions that you rely on every day when 
you are sitting in an airplane reading a magazine or whether 
you are sitting at home watching television and DOD is 
protecting you.
    Mr. Shays. Got you.
    Mr. Knapp.
    Mr. Knapp. There is ongoing oversight of the state of 
affairs with respect to efficiency. As Mr. Gallagher pointed 
out, it is not the same for every service.
    In commercial services, we have applied market mechanisms 
and provided flexibilities so that, for example, in the 
cellular services today, there is roughly an 8 to 10-to-1 
improvement over where we were when we started 15 years ago. 
For some of the private mobile services, we have established a 
plan, since market incentives weren't appropriate to 
specifically move to more spectrum efficient technology.
    For licensees, such as satellite licensees, they have 
milestones for buildout and so forth to ensure that they in 
fact are constructing these systems, and report back to us on 
the efficiencies to which they are using the spectrum.
    And last, I would just add with all of the competition for 
spectrum out there and people kind of watching what everybody 
else is doing, if you are not using your spectrum efficiently 
it is not very long before somebody is asking us to reallocate 
it.
    Mr. Shays. True. And they are probably asking you to 
reallocate it even when they are using it efficiently.
    Mr. Knapp. That is true.
    Mr. Shays. Is there any other question?
    Mr. Gallagher. I just wanted to add, Mr. Chairman, that I 
am very encouraged by what I see in the technological area. 
That is one thing we don't touch on in our opening statements. 
But when you look at--there is a DARPA program that is called 
Generation X, or X Generation Spectrum. It is run--or was--had 
very high level participation from Dr. Kolodzy, who was 
mentioned earlier.
    It is the notion that you use spectrum--if--every 
assignment is like a lane on a freeway. It would allow me to 
move in and around you on the freeway and you wouldn't even 
know I was there. I would be in your assigned frequency, but 
using it in a more efficient manner.
    Some of the time references that the General mentioned in 
his statement, that we could be more flexible in how we use 
spectrum, that is a very encouraging technology that is on the 
cusp. It is several years away, but in the public policy arena 
we are not ready to address that technology.
    Mr. Shays. Does it raise the question that trying to have a 
plan for the next 15 years is almost foolish because technology 
may make that so obsolete?
    Mr. Gallagher. Mr. Chairman, I think that plans impose 
discipline, and discipline is what is necessary so that you can 
fulfill the mission of leadership. But we have to be mindful 
that in a plan scenario all of the participants have an 
allocation on this multi-colored chart today come in and 
describe how they need more, and it is a fixed resource.
    How do you plan in that environment? It requires judgments 
being made, which is the capacity of government at your 
direction.
    Mr. Shays. Thank you. We have had two of our counsel and 
professional staff ask questions. But someone who has done most 
of the work for this hearing, Sherrill Gardner, a congressional 
fellow is--I just want the record to show that she has done a 
great deal of the work for this effort, and I appreciate it. 
She is the congressional fellow and very helpful and valuable 
in our office. I thank her.
    You have a question?
    Mr. Halloran. Yes. General Bryan, here is this question 
while you are here.
    Mr. Gallagher mentioned a legislative scenario under which 
we are operating now in terms of DOD having identified 
comparable spectrum for certain activities, apparently I guess 
in 1755 to 1800, 1850. Is there such a thing?
    Is there comparable spectrum to those uses? And if there 
is, if you can identify it, how do you quantify the costs of 
moving there?
    General Bryan. Well, we have done the best we can in 
answering other required responses. We have documented what we 
believe the cost of moving the systems that we have now to 
comparable spectrum would be.
    It's something in the order of $4.3 billion of inventory 
would have to be changed over.
    On the other hand, the first part of the question is the 
tougher part. The physics are the physics are the physics, and 
we are not yet aware of comparable spectrum which will fulfill 
the same needs of the spectrum which has been identified as 
most valuable to not only precision munitions but the very 
difficult world of mobile command and control. And----
    Mr. Halloran. Is it correct to say that the physical 
limitations, propagation, whatever, you know, power 
requirements, whatever you're bumping up against in trying to 
relocate, those are not issues that technology on the horizon 
today offers any solution for?
    General Bryan. Well, we believe that there's no technical 
panacea there right now. In my oral statement, I mention the 
number of things that have to be worked in combination; and 
anyone who's been out there like I have on a rainy night trying 
to make comm work over a mountain between mobile users knows 
that the same solution doesn't always work. The situation 
constantly changes. So do the solution sets.
    So it's a combination of propagation, jamming mitigation, 
antenna use, power settings. Sometimes you talk--I mean, you 
want to talk secure in an anti-jamming mode. That costs you 
power on the system. In order to get the message through, 
sometimes you tradeoff the feature. It's a combination of 
measures now.
    But we are all very encouraged with the pace--if one was to 
look back just the past 5 or 6 years, as Mr. Knapp stated, the 
massive tenfold improvement in efficiencies on the commercial 
side and wireless alone demonstrate, at least anecdotally, that 
the technology frontier for digitization and other 
possibilities--Mr. Gallagher mentioned the interweaving, mazing 
thought process that's going on in DARPA right now. These are 
around-the-corner technical advances that we have to be 
prepared to take advantage of, because there's simply no way to 
take the way we do it today and exit those bands and those 
spectrums and move to something comparable and do business the 
same way we do it today and achieve the same end state.
    Mr. Shays. I'm going to just make another point and ask 
this question, just because I'd be disappointed later if I 
didn't ask. I have something like a Blackberry today, and it 
makes it--it's a very efficient tool. I mean, I can be in my 
bedroom at night, write someone a note, get an answer the next 
day. I can, frankly, be at a hearing when all of my colleagues 
are giving statements and, before we give testimony, write 20 
e-mails because none of us like to hear each other speak. But I 
can get a lot of work done. My productivity has increased with 
this, and I'm sure for a whole group of people throughout the 
United States.
    Now, my question is this: I intuitively say that if the 
military needs it and the police need it, the fire department 
needs it, they come first. They come first before anyone else. 
They come first. Case closed.
    But then I begin to think in terms of the military. If some 
countries don't have the burden of funding and having a 
military, then they obviously don't have the benefits. But if 
they don't have the burden of, you know, helping the world be a 
peaceful place to live and we take on that burden, does that 
ultimately mean that we're not going to be able to have certain 
commercial benefits that will enable some countries to overtake 
us in an economic way? In other words, I'm thinking that when I 
go to--the few times I've been to Asia, there are things that 
they can do with their telecommunication that makes us look 
like we're almost Third World. And is that just simply that 
industry isn't bringing the next model because they want us to 
use that model, or is it simply that they don't have the 
spectrum space to do what we're seeing happen in Asia where 
they don't have the military obligations and some of the other 
obligations?
    It's not an answer that I expect to be perfect, Mr. Knapp, 
but I'd like to just start my thinking on this.
    Mr. Knapp. We do have greater demands here for spectrum use 
in the United States than in other parts of the world, and it 
forces us to be more clever in finding ways to pack more into 
the same amount of spectrum, either through sharing or putting 
the emphasis on advanced technologies.
    At the same time, there's no doubt that if you've got more 
spectrum to work with, it's easier to design systems, and it is 
somewhat easier to implement the newer technologies.
    Mr. Shays. But what I view us today is being in a--the cold 
war is over. The General would know and the rest of us, the 
world is a more dangerous place, ironically. The need for the 
military, particularly in this life-and-death battle with 
terrorism--I mean, we're in a race with terrorism to shut them 
down before they use weapons of mass destruction. For me, 
that's case closed. I mean, that's a big battle.
    But I'm--but we're also in a battle with our allies. Coming 
from the Commerce Department, you would particularly appreciate 
this. We're in a race with them for technology advantages, 
trade. We obviously believe that trade helps both sides, but we 
want to be competitively superior.
    In some ways, the challenge to meet the needs of the 
military not only forces us to be innovative but in some cases 
puts us at a disadvantage economically. That's really the 
question. Do you want to just make a----
    Mr. Gallagher. I would be pleased to, Mr. Chairman.
    Economic security is critical in order to have national 
security. They go together.
    Mr. Shays. Exactly.
    Mr. Gallagher. And so at the Department of Commerce, 
Secretary Evans made it clear that's a primary focus and we 
must be competitive. We must lead the world in technology, 
which has brought us so much wealth as a country.
    As an example, I would point to ultrawideband. The rest of 
the world's spectrum charts don't look like that. They can put 
this technology in in a manner that would interfere greatly 
with our systems, private and government systems, and not care, 
but if we define it so that this market drives the rest of the 
world, then we not only--then we not only break the ground for 
world-leading U.S. technology, but we also protect our critical 
systems.
    Mr. Shays. Right. That just provides a little balance here.
    So did you want to make another comment, any of you? Any 
question we should have asked that you spent all night 
preparing?
    General, I know that you don't spend all night preparing, 
because in the military you're just real cool, but--you are 
cool, all of you. Thank you. Wonderful to have you here. Very 
interesting hearing, and this committee--the full committee 
clearly will be involved in trying to help all of you sort it 
out.
    With this, the hearing is closed.
    [Whereupon, at 1 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 80940.103

[GRAPHIC] [TIFF OMITTED] 80940.104

[GRAPHIC] [TIFF OMITTED] 80940.105

[GRAPHIC] [TIFF OMITTED] 80940.106

[GRAPHIC] [TIFF OMITTED] 80940.107

[GRAPHIC] [TIFF OMITTED] 80940.108

[GRAPHIC] [TIFF OMITTED] 80940.109

[GRAPHIC] [TIFF OMITTED] 80940.110

[GRAPHIC] [TIFF OMITTED] 80940.111

[GRAPHIC] [TIFF OMITTED] 80940.112

[GRAPHIC] [TIFF OMITTED] 80940.113

[GRAPHIC] [TIFF OMITTED] 80940.114

[GRAPHIC] [TIFF OMITTED] 80940.115

[GRAPHIC] [TIFF OMITTED] 80940.116

[GRAPHIC] [TIFF OMITTED] 80940.117

[GRAPHIC] [TIFF OMITTED] 80940.118

[GRAPHIC] [TIFF OMITTED] 80940.119

[GRAPHIC] [TIFF OMITTED] 80940.120

[GRAPHIC] [TIFF OMITTED] 80940.121

[GRAPHIC] [TIFF OMITTED] 80940.122

[GRAPHIC] [TIFF OMITTED] 80940.123

[GRAPHIC] [TIFF OMITTED] 80940.124

[GRAPHIC] [TIFF OMITTED] 80940.125

[GRAPHIC] [TIFF OMITTED] 80940.126

[GRAPHIC] [TIFF OMITTED] 80940.127

[GRAPHIC] [TIFF OMITTED] 80940.128

[GRAPHIC] [TIFF OMITTED] 80940.129

[GRAPHIC] [TIFF OMITTED] 80940.130

[GRAPHIC] [TIFF OMITTED] 80940.131

[GRAPHIC] [TIFF OMITTED] 80940.132

[GRAPHIC] [TIFF OMITTED] 80940.133

[GRAPHIC] [TIFF OMITTED] 80940.134

[GRAPHIC] [TIFF OMITTED] 80940.135

[GRAPHIC] [TIFF OMITTED] 80940.136

[GRAPHIC] [TIFF OMITTED] 80940.137

[GRAPHIC] [TIFF OMITTED] 80940.138

[GRAPHIC] [TIFF OMITTED] 80940.139

[GRAPHIC] [TIFF OMITTED] 80940.140

[GRAPHIC] [TIFF OMITTED] 80940.141

[GRAPHIC] [TIFF OMITTED] 80940.142

[GRAPHIC] [TIFF OMITTED] 80940.143

[GRAPHIC] [TIFF OMITTED] 80940.144

[GRAPHIC] [TIFF OMITTED] 80940.145

[GRAPHIC] [TIFF OMITTED] 80940.146

[GRAPHIC] [TIFF OMITTED] 80940.147

[GRAPHIC] [TIFF OMITTED] 80940.148

[GRAPHIC] [TIFF OMITTED] 80940.149

[GRAPHIC] [TIFF OMITTED] 80940.150

[GRAPHIC] [TIFF OMITTED] 80940.151

[GRAPHIC] [TIFF OMITTED] 80940.152

[GRAPHIC] [TIFF OMITTED] 80940.153

[GRAPHIC] [TIFF OMITTED] 80940.154

[GRAPHIC] [TIFF OMITTED] 80940.155

[GRAPHIC] [TIFF OMITTED] 80940.156

[GRAPHIC] [TIFF OMITTED] 80940.157

[GRAPHIC] [TIFF OMITTED] 80940.158

[GRAPHIC] [TIFF OMITTED] 80940.159

[GRAPHIC] [TIFF OMITTED] 80940.160

[GRAPHIC] [TIFF OMITTED] 80940.161

[GRAPHIC] [TIFF OMITTED] 80940.162

[GRAPHIC] [TIFF OMITTED] 80940.163

[GRAPHIC] [TIFF OMITTED] 80940.164

[GRAPHIC] [TIFF OMITTED] 80940.165

[GRAPHIC] [TIFF OMITTED] 80940.166

[GRAPHIC] [TIFF OMITTED] 80940.167

[GRAPHIC] [TIFF OMITTED] 80940.168

[GRAPHIC] [TIFF OMITTED] 80940.169

[GRAPHIC] [TIFF OMITTED] 80940.170

[GRAPHIC] [TIFF OMITTED] 80940.171

[GRAPHIC] [TIFF OMITTED] 80940.172

[GRAPHIC] [TIFF OMITTED] 80940.173

[GRAPHIC] [TIFF OMITTED] 80940.174

[GRAPHIC] [TIFF OMITTED] 80940.175

[GRAPHIC] [TIFF OMITTED] 80940.176

[GRAPHIC] [TIFF OMITTED] 80940.177

[GRAPHIC] [TIFF OMITTED] 80940.178

[GRAPHIC] [TIFF OMITTED] 80940.179

[GRAPHIC] [TIFF OMITTED] 80940.180

[GRAPHIC] [TIFF OMITTED] 80940.181

[GRAPHIC] [TIFF OMITTED] 80940.182

[GRAPHIC] [TIFF OMITTED] 80940.183

[GRAPHIC] [TIFF OMITTED] 80940.184

[GRAPHIC] [TIFF OMITTED] 80940.185

[GRAPHIC] [TIFF OMITTED] 80940.186

[GRAPHIC] [TIFF OMITTED] 80940.187

[GRAPHIC] [TIFF OMITTED] 80940.188

[GRAPHIC] [TIFF OMITTED] 80940.189

[GRAPHIC] [TIFF OMITTED] 80940.190

                                   - 

</pre></body></html>
